<html>
<title> - PUBLIC DIPLOMACY IN THE MIDDLE EAST</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 
                  PUBLIC DIPLOMACY IN THE MIDDLE EAST

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON NATIONAL SECURITY,
                   EMERGING THREATS AND INTERNATIONAL
                               RELATIONS

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 10, 2004

                               __________

                           Serial No. 108-153

                               __________

       Printed for the use of the Committee on Government Reform




  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform






                        U.S. GOVERNMENT PRINTING OFFICE

94-158                         WASHINGTON : 2004
_____________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing
Office Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800
Fax: (202) 512-2250  Mail: Stop SSOP, Washington, DC  20402-0001




                 COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
NATHAN DEAL, Georgia                 C.A. ``DUTCH'' RUPPERSBERGER, 
CANDICE S. MILLER, Michigan              Maryland
TIM MURPHY, Pennsylvania             ELEANOR HOLMES NORTON, District of 
MICHAEL R. TURNER, Ohio                  Columbia
JOHN R. CARTER, Texas                JIM COOPER, Tennessee
MARSHA BLACKBURN, Tennessee          ------ ------
------ ------                                    ------
------ ------                        BERNARD SANDERS, Vermont 
                                         (Independent)

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
                      Rob Borden, Parliamentarian
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

 Subcommittee on National Security, Emerging Threats and International 
                               Relations

                CHRISTOPHER SHAYS, Connecticut, Chairman

MICHAEL R. TURNER, Ohio
DAN BURTON, Indiana                  DENNIS J. KUCINICH, Ohio
STEVEN C. LaTOURETTE, Ohio           TOM LANTOS, California
RON LEWIS, Kentucky                  BERNARD SANDERS, Vermont
TODD RUSSELL PLATTS, Pennsylvania    STEPHEN F. LYNCH, Massachusetts
ADAM H. PUTNAM, Florida              CAROLYN B. MALONEY, New York
EDWARD L. SCHROCK, Virginia          LINDA T. SANCHEZ, California
JOHN J. DUNCAN, Jr., Tennessee       C.A. ``DUTCH'' RUPPERSBERGER, 
TIM MURPHY, Pennsylvania                 Maryland
------ ------                        JOHN F. TIERNEY, Massachusetts
                                     ------ ------

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
            Lawrence J. Halloran, Staff Director and Counsel
                Thomas Costa, Professional Staff Member
                        Robert A. Briggs, Clerk
             Andrew Su, Minority Professional Staff Member






                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 10, 2004................................     1
Statement of:
    Ford, Jess T., Director, International Affairs and Trade, 
      General Accounting Office; Stephen Johnson, senior policy 
      analyst, the Heritage Foundation; David E. Morey, president 
      and CEO, DMG, Inc., and member, Council on Foreign 
      Relations Public Diplomacy Task Force; and Stephen P. 
      Cohen, president, Institute for Middle East Peace and 
      Development, and member, Advisory Group on Public Diplomacy 
      for the Arab and Muslim World..............................    56
    Tomlinson, Kenneth Y., chairman, Broadcasting Board of 
      Governors, accompanied by Norman J. Pattiz, founder and 
      chairman, Westwood One, member, Broadcasting Board of 
      Governors; and Harold Pachios, chairman, Advisory 
      Commission on Public Diplomacy.............................    29
    Tutwiler, Margaret, Under Secretary of State for Public 
      Diplomacy and Public Affairs, Department of State..........     6
Letters, statements, etc., submitted for the record by:
    Cohen, Stephen P., president, Institute for Middle East Peace 
      and Development, and member, Advisory Group on Public 
      Diplomacy for the Arab and Muslim World, prepared statement 
      of.........................................................    99
    Ford, Jess T., Director, International Affairs and Trade, 
      General Accounting Office, prepared statement of...........    59
    Johnson, Stephen, senior policy analyst, the Heritage 
      Foundation, prepared statement of..........................    76
    Morey, David E., president and CEO, DMG, Inc., and member, 
      Council on Foreign Relations Public Diplomacy Task Force, 
      prepared statement of......................................    87
    Pachios, Harold, chairman, Advisory Commission on Public 
      Diplomacy, prepared statement of...........................    42
    Shays, Hon. Christopher, a Representative in Congress from 
      the State of Connecticut, prepared statement of............     3
    Tomlinson, Kenneth Y., chairman, Broadcasting Board of 
      Governors, prepared statement of...........................    33
    Tutwiler, Margaret, Under Secretary of State for Public 
      Diplomacy and Public Affairs, Department of State:
        Letter dated February 11, 2004...........................    22
        Prepared statement of....................................     9


                  PUBLIC DIPLOMACY IN THE MIDDLE EAST

                              ----------                              


                       TUESDAY, FEBRUARY 10, 2004

                  House of Representatives,
Subcommittee on National Security, Emerging Threats 
                       and International Relations,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:05 p.m., in 
room 2154, Rayburn House Office Building, Hon. Christopher 
Shays (chairman of the subcommittee) Presiding.
    Present: Representatives Shays, Ruppersberger and Tierney.
    Staff present: Lawrence Halloran, staff director and 
counsel; Thomas Costa, professional staff member; Robert A. 
Briggs, clerk; Richard Lundberg, fellow; Andrew Su, minority 
professional staff member; and Jean Gosa, minority assistant 
clerk.
    Mr. Shays. A quorum being present, the Subcommittee on 
National Security, Emerging Threats and International Relations 
hearing entitled, ``Public Diplomacy in the Middle East,'' is 
called to order.
    The end of the cold war was seen by many as the ultimate 
victory in the global ideological struggle. Using words as 
weapons to kindle the spark of liberty and oppressed peoples, 
the forces of freedom helped defeat communism in the decisive 
battle without firing a shot. Public diplomacy, the cultural 
exchanges, education programs and broadcasts used to promote 
U.S. interests to foreign audiences, pierced the Iron Curtain 
more effectively and efficiently in some ways than missiles.
    But then the tools that helped bring down the Berlin Wall 
and splintered the Soviet Union were allowed to rust in the 
mistaken belief that the battle of ideas was over. Subsumed 
within the State Department's ``stifling culture and starved 
for resources,'' public diplomacy was left to wither without 
strategic focus or organizational direction. So when the United 
States needed a strong voice to counter the toxic antipathy 
emanating from radical factions and terrorists in the Middle 
East, the world often heard only a hoarse, fragmented whisper.
    Studies and analyses done inside and outside the Federal 
Government concluded our public diplomacy capacity lagged far 
behind the critical requirement to counter terrorism on the 
rhetorical and ideological battlefields of that volatile 
region. According to the State Department's Advisory Group on 
Public Diplomacy for the Arab and Muslim World, ``The United 
States today lacks the capabilities in public diplomacy to meet 
the national security threat emanating from political 
instability, economic depravation and extremism.'' Others we 
will hear from today have been equally critical of U.S. public 
diplomacy as lacking strategic cohesion and sustained 
leadership.
    Nowhere is our stunted reach into the hearts and minds of 
Arabs and Muslims more obvious and perilous than Iraq. All 
public diplomacy in this region today should be keenly focused 
on persuading Iraqis and their neighbors that we are there as 
liberators, not as occupiers, and that's the truth. They need 
to know it. But halting efforts by the Coalition Provisional 
Authority [CPA], and a lack of coordination between the other 
Federal organs of public statecraft have left control of the 
airwaves and the debate to al-Jazeera and al-Arabiya and the 
purveyors of the rampant anti-Americanism.
    Last month in Iraq, CPA officials told us they were 
accelerating efforts to build U.S. and indigenous media 
capacity to balance the current one-sided public discourse. But 
as if to underscore the second-class status of public diplomacy 
in the interagency realm, neither CPA nor the Department of 
Defense chose to provide a witness or testimony today. They 
will evidently do so at a future hearing. Their absence speaks 
volumes to me.
    However, we do welcome testimony today from the Under 
Secretary of State for Public Diplomacy and Public Affairs, 
Margaret Tutwiler. Although only recently confirmed, and 
without a full team of deputies in place, she waived the usual 
protocols to join us today. Madam Secretary, thank you for 
coming.
    Words matter. The language of liberty, equality and 
opportunity liberated us from the royalist yoke. With the right 
message conveyed through culturally attuned media, the 
revolutionary message of freedom and democracy has the 
extraordinary power to accomplish what guns cannot: transform 
subjects into citizens, victims into voters. U.S. public 
diplomacy now has to rise to meet that challenge.
    Our witnesses today bring impressive expertise and 
important recommendations to our discussion of public diplomacy 
reforms. We welcome them, and we look forward to their 
testimony.
    [The prepared statement of Hon. Christopher Shays follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.001
    
    [GRAPHIC] [TIFF OMITTED] 94158.002
    
    Mr. Shays. At this time, the Chair would recognize the 
distinguished Mr. Ruppersberger.
    Mr. Ruppersberger. Thank you for this hearing. It's very 
relevant at this time and what's happening in the world.
    Following the events of September 11, the need for 
strengthening public diplomacy became that much greater as the 
administration started to make Muslim peoples in the Middle 
East and elsewhere aware that America's war on terrorism is not 
a war on Islam.
    The war in Iraq has exacerbated our public diplomacy 
challenges in the region. Public diplomacy is defined as 
cultural, educational and information programs, citizen 
exchange programs or broadcasts used to promote the national 
interest of the United States through understanding, informing 
and influencing foreign audiences. Last year the House 
recognized need to increase and improve understanding of the 
United States among overseas audiences and change attitudes. In 
the Freedom Support Act of 2002, adopted by House vote on 
September 22, 2002, was a comprehensive attempt to restructure 
and refinance public diplomacy and rationalize the diverse 
elements making up U.S. international broadcasting.
    This is an important hearing. We cannot win the engagements 
that are within our world now, such as terrorism, the war in 
Iraq, the war in Afghanistan, by just going to war with our 
military. We need to work the diplomacy side also. So I'm 
looking forward to this hearing, and I hope we will learn so 
that we can help and gain world peace.
    Mr. Shays. I am going to take care of a little housekeeping 
here first. I ask unanimous consent that all members of the 
subcommittee be permitted to place an opening statement in the 
record and the record remain open for 3 days for that purpose. 
Without objection, so ordered.
    I ask further unanimous consent that all witnesses be 
permitted to include their written statement in the record. 
Without objection, so ordered.
    I would welcome our first witness, Margaret Tutwiler, Under 
Secretary for Public Diplomacy and Public Affairs, Department 
of State. I said to you that she has a lot of fans in and 
outside of the State Department, and one of the many 
compliments to her is her straight talking, so we look forward 
to that.
    As you know, we swear in all our witnesses and I will just 
ask you to rise.
    [Witness sworn.]
    Mr. Shays. Our witness has responded in the affirmative. 
There is only one person in my many, many years as chairman 
that we didn't swear in, and I was a coward, and that was 
Senator Byrd.
    So, Madam Secretary, you have the floor. What we are going 
to do is have a 5-minute clock, but we are going to roll the 
clock over so you will have 10 minutes if you need it. You will 
see a green light and then another green.

 STATEMENT OF MARGARET TUTWILER, UNDER SECRETARY OF STATE FOR 
    PUBLIC DIPLOMACY AND PUBLIC AFFAIRS, DEPARTMENT OF STATE

    Ms. Tutwiler. Good afternoon. Thank you very much for the 
opportunity to appear before you today.
    I experienced September 11 and all that has come afterwards 
from the perspective of living and working overseas in an Arab 
nation. Regrettably, as both of you have said, today too many 
nations and their citizens have a very different view of the 
United States than we would desire. Much of what I have learned 
about foreign views of our country has been from listening, 
engaging and interacting with Arabs from all walks of life, and 
much of what I have learned was troubling and disturbing.
    I have a much better understanding of how our country is 
viewed, both the positives and the negatives, because of my 
recent service overseas. In the brief time that I have been 
serving as the Under Secretary of State for Public Diplomacy 
and Public Affairs, I have gained a greater understanding and 
appreciation of what the Under Secretary's office, the three 
bureaus, the public diplomacy offices of the regional bureaus 
and our overseas posts do.
    Over the past 2 years, as you point out, much has been 
written and debated about the effectiveness or noneffectiveness 
of the U.S. Government's public diplomacy activities and 
programs overseas. Helpful and responsible reports by my friend 
Ambassador Ed Djerejian's advisory committee, by Dr. Abshire's 
Center for the Study of the Presidency, the Council on Foreign 
Relations and the Heritage Foundation have served to help us 
examine that which our government does well and that which can 
be improved. Many of their insights and recommendations we can 
all agree upon.
    As we all know, unfortunately, our country has a problem in 
far too many parts of the world today, especially in the Middle 
East and Southeast Asia, a problem we have regrettably 
developed over many years through both Republican and 
Democratic administrations, and a problem that does not lend 
itself to a quick fix, a single solution or a simple plan. Just 
as it has taken us many years to get into this situation, it is 
my opinion that it will take many years of hard, focused work 
to get out of it.
    I believe that our strategic goals are very clear. We need 
to continue to focus and deliver meaningful programs and 
activities in those areas of the world where there has been a 
deterioration in the view of our Nation. That deterioration is, 
of course, most stark in the Arab and Muslim world. At the same 
time, we must work equally as hard in those areas where the 
opinion of the United States has not changed to date.
    We should listen more not only to foreign audiences, but to 
our own PD overseas. Shortly all public diplomacy officers will 
be able to communicate and share ideas and information across 
all regions through a new interactive Web site devoted to 
public diplomacy.
    Effective policy advocacy remains a priority, and I believe 
we basically, as government officials overseas, do a good job 
of advocating our policies and explaining our actions. 
Audiences may not agree or like what we say and do, but we are 
communicating our policies to governments and influential 
elites, including the foreign media. Our senior officials, 
Ambassadors and embassy staff, are out there explaining U.S. 
policy goals and initiatives.
    We can, of course, do better. We must do a better job of 
reaching beyond the traditional elites and government officials 
overseas. We have not, in my opinion, placed enough effort and 
focus on the nonelites, who, today, much more so than in the 
past, are a very strong force within their countries. This must 
be a priority focus now and in the future. We only have to look 
at the outreach activities of many U.S. corporations overseas 
to see the value of being present and engaged in neighborhoods 
that we in government have for too long neglected.
    We need to support those programs and activities that go to 
the bottom line of halting and reversing this deterioration. We 
need to constantly ask ourselves, is this activity or program 
still effective in today's world. If it is, we should keep it. 
If it is judged to no longer contribute, then we should let it 
go. We must develop effective mechanisms for evaluating program 
impact and effectiveness of all our programs and activities.
    We must continue to pursue new initiatives and improve 
older ones in the hopes of reaching younger, broader and deeper 
audiences.
    I believe we can all agree that programs that bring 
Americans and foreigners together, whether in person or in a 
video or press conference, creates greater understanding. We 
have numerous activities and programs which are doing just 
this. I have highlighted and give details of many of them in my 
written testimony, programs such as School Internet 
Connectivity Program; Partnerships for Learning, which reaches 
high school exchange students.
    We started a new initiative since I have been here which 
are microscholarships for English learning and attendance at 
our American schools overseas; American Corners; virtual 
consulates; English teaching; book programs; private sector 
cooperation; Culture Connect; television, Internet and numerous 
exchange programs. However we do it, we must engage, listen and 
interact, especially with the young and nonelites. They are the 
key to a peaceful future.
    Interagency coordination is, of course, essential to the 
effectiveness of public diplomacy. The new State USAID-Joint 
Policy Council and the State-USAID Management Council are 
intended to improve program coordination and public diplomacy, 
as in other areas, and help ensure the most effective use of 
program resources in both the Department and at the U.S. Agency 
for International Development.
    Regrettably, all too often our important and meaningful 
assistance to the developing countries is going unnoticed and 
unappreciated, while other nations' assistance to these same 
countries is widely known and appreciated. This must change. 
Governmentwide we have to do a much better job of ensuring that 
the U.S. efforts are widely known well beyond the foreign 
government officials that we interact with every day. We can no 
longer afford the recipients overseas to have no idea that the 
people of the United States provide assistance to their country 
and to their citizens.
    In closing, Mr. Chairman, let me say again we all know 
there is much work to be done. We all know that our public 
diplomacy programs, those I have mentioned and others, must 
advance our national interest and do a better job of explaining 
not only our policies, but also who we are as a people. In a 
world of finite funding, we must ensure that our public 
diplomacy resources are used as effectively as possible. We 
must prioritize and ask ourselves, is the activity I am doing 
getting the job done. We must listen to our field force. Today 
the State Department has approximately 1,200 employees working 
in the field of public diplomacy. I also maintain that every 
American, regardless of agency or department, has to make an 
extra effort to communicate, listen and engage with not only 
our traditional audiences, but to an audience to whom we 
previously have not given as much effort or time. We must 
simply move beyond the walls of our embassies overseas and 
spending time in foreign government offices.
    I am realistically optimistic that we can achieve over time 
a better, healthier and much more accurate impression of our 
Nation and people. No one, most especially myself, 
underestimates the challenge and difficult task at hand. The 
public diplomacy officials that I work with are reaching, 
questioning and searching for more effective ways to enunciate 
our policies and have our values understood. We will continue 
to make mistakes, but I truly believe we will all ultimately 
get there. We have no choice, and, in my opinion, we must. 
Thank you very much.
    Mr. Shays. Thank you very much.
    [The prepared statement of Ms. Tutwiler follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.003
    
    [GRAPHIC] [TIFF OMITTED] 94158.004
    
    [GRAPHIC] [TIFF OMITTED] 94158.005
    
    [GRAPHIC] [TIFF OMITTED] 94158.006
    
    [GRAPHIC] [TIFF OMITTED] 94158.007
    
    [GRAPHIC] [TIFF OMITTED] 94158.008
    
    [GRAPHIC] [TIFF OMITTED] 94158.009
    
    Mr. Shays. Before asking Mr. Ruppersberger to ask 
questions, I need to know if it is better to call you 
Ambassador or Madam Secretary.
    Ms. Tutwiler. You can call me Margaret, whichever you 
prefer.
    Mr. Shays. Mr. Ruppersberger.
    Mr. Ruppersberger. Ambassador, first, it's rare that I 
agree with everything a witness has said, but I agree with 
everything you have said. We have a lot of challenges there. We 
know the future of our world is based on diplomacy.
    Couple of things. First thing, I want to give you a little 
story. I had an experience about 12 years ago in another local 
elected capacity. I went to Israel with the Baltimore Jewish 
Council, and they allowed our group to spend a day with the 
leadership in the Palestine community. And this one individual 
who was very high up, close to Arafat--and one of the things he 
pointed out a story, he said, you know what I'm worried about 
more than anything, and we all eventually want peace, every 
time there is a strike or whatever, and the borders close, and 
the military, usually 19, 20-year-old Israeli soldiers, are 
very touchy because they are concerned about anybody having a 
bomb, they become very arrogant to Palestinian families that 
come to Jerusalem every day, where you have grandparents, 
parents, grandparents, children--children, 9, 10, 11 years old. 
And when these young children see how their parents and 
grandparents are treated and humiliated, they will be our 
terrorists of tomorrow.
    And you mentioned the issue of the youth. Just like we do 
in America, if we don't get to the youth, they could be our 
future criminals of tomorrow. And I think it is very important 
to address that.
    And is there a program specifically just to address the 
younger generation and the youth that exists now? And how do 
you feel about that, or what are you doing with respect to the 
youth?
    Ms. Tutwiler. I agree with you, and there are a number of 
existing programs where the State Department traditionally has 
reached out to youth. I will tell you that since September 11, 
there has been a reallocation of resources in some different 
programs up to the point in scholarships of a 25 percent 
reallocation to high school and undergraduates. Traditionally 
we had done a lot of graduate work. And I fully support that. 
We are going to continue it. Hopefully we will be able in the 
existing budget to do a little bit more reallocation.
    And as I mentioned, we have literally in the last 2 weeks 
started something that I think has enormous benefit for our 
country, and that is basically taking the concept that you all 
are very familiar with--we all are--that worked so well for our 
country overseas, the microcredit loan structure, and take it 
and apply it in a way to microscholarships for young people and 
not the elites. The elites, after all, have access to 
information. They travel. They have an opportunity for a very 
good education; and to try, sir, as you are pointing out, to 
get into neighborhoods that we traditionally as Americans, 
regardless of party affiliation, have been in. And I think it 
is very important that we engage and participate in those 
particular neighborhoods, which happen to be quite large.
    Mr. Ruppersberger. What concerns me especially with the 
Wahabiism and religious schools throughout the Middle East, 
there's a lot of radical teachings that are going on, and there 
needs to be a program to counter that, and that is education. 
And that indoctrination, forget it. Do you think we are getting 
anywhere to counter the religious schools that are existing 
now?
    Ms. Tutwiler. I know in one or two countries, I have met 
with the U.S. Ambassadors when they have been back here, and 
they are doing very innovative things along those lines. I 
cannot speak to every embassy, but I am aware of one or two 
that actually are trying to tackle that. And we also, sir, are 
looking at--as you know, the U.S. Government has a fairly large 
role in the American schools overseas, almost in every post on 
where we have an embassy. Many of them are not at full 
occupancy, and I am looking at, and have people right now, can 
we not fill up existing structures that we already have, and 
they are under the umbrella of the embassy, and take young 
people and give them a true American experience in one of our 
American schools overseas.
    Mr. Ruppersberger. One of these issues is communication. 
There has been a lot of money spent on the message being sent 
out through TV or communication, but that is one-way 
communication. I think experts in some of the articles I have 
read said probably the most effective way to communicate, 
especially in the Middle East where the Muslim communities are, 
is face to face. Do you agree with that, and what programs do 
we have that we are attempting to communicate on more of a 
face-to-face basis than actual mass media?
    Ms. Tutwiler. I agree with your statement that the 
situation we find ourselves in does not lend itself to a 
single-source solution. I think there are a number of things 
that we are doing that we should continue doing.
    I am in the process of trying to give guidance to a very 
serious look at what are the things that we have been doing 
that really are no longer effective, and it is multimedia, and 
it is across the board. And I can't answer for you today where 
I believe where we should be putting, within the existing 
budget, additional resources.
    Mr. Ruppersberger. Is our actual message the problem?
    Ms. Tutwiler. No. I will tell you as a sitting Ambassador, 
sitting in a country of 30 plus million Arabs and Muslims, I 
had to wrestle with that, and I believe that each of us, 
whether in private sector or governmental public service, we 
handle complex portfolios. Part of my job as Ambassador, and I 
hope--I certainly tried to do it aggressively, is the defense 
and articulation aggressively with the local media, and I 
definitely tried to do that on a daily basis. But in addition, 
I decided--well, some people will say you can't do anything. 
That is the policy. I fundamentally disagree. If you accept 
that, in my opinion, then we accept we cannot do anything. So I 
tried most sincerely to find ways that we could do what we are 
paid to do as public servants, articulate and defend the policy 
of the U.S. Government, but also do exactly what you are saying 
and most sincerely engage as Americans regardless of title in 
that country in which we were serving in. And I believe that 
both are effective. I believe that personnel overseas have to 
do both.
    Mr. Ruppersberger. Getting back to the face-to-face issue, 
which seems to be the most effective, and whether it is Iraq, 
Israel or whatever, it seems to me--and you have to refocus--we 
are looking for the ultimate quick fix, and it is not going to 
happen, and it takes a long time. And we have teams of military 
where they should be, and we have other teams of diplomats 
where they should be.
    But it seems to me we are going to have to get into 
individual communities such as in the southwest or southeast of 
Washington, and what you might need is a combination of a team 
of--a political team, an economic team and a social team, who 
literally will deal with all three of those issues and can 
start developing those relationships and buildup the trust, 
because a lot of times issues that occur is whether it relates 
to lack of trust with a community or those individuals that 
could be recruited into terrorism or al Qaeda. If you get to 
them at that level--because there is a lot of poverty 
throughout the world, and those people are vulnerable to 
problems that exist. And you know, is there a plan to do the 
type of thing that I just talked about, or is there money and 
resources?
    Ms. Tutwiler. You are absolutely right. And you and I never 
met, and you said that you rarely agree with everything a 
witness says, and I have tell you that I agree with everything 
you were saying. It is exactly the model that I brought back 
here based on experience that I am trying, to the best of my 
ability, to get us to participate in more.
    And all of us in this room are in some shape or fashion 
political. We understand grass-roots, door-to-door politics. 
And I know at the State Department that we are nonpartisan. But 
it is that type of activity, in my mind, in addition to the 
other activities that we are doing that I have mentioned and 
that others will testify today are responsible for, it is 
exactly the kind of thing that I believe we should be doing and 
that we are very effective at as Americans and know how to do.
    And so I can't tell you today exactly what my plan is, but 
I can tell you in the short time I have been here--I will 
mention it again, these microscholarships, I am talking about 
coming from the very neighborhoods you are concerned about, 
nontraditional neighborhoods that we have not reached into, we 
have not been in, we don't know the people, we don't know the 
neighborhood captains, etc. So it's an attempt. We are starting 
in five Arab countries, and I hope to be in a whole host of 
countries. And I can also assure that you every child who 
receives such an opportunity is going to know that it came from 
the U.S. people.
    Mr. Ruppersberger. Let me ask you this, and this is my last 
question. Since we agree on most things so far, how would you 
implement, or where are we implementing, or if you were the 
Secretary of State and you had the budget to do what you wanted 
to do, what would your plan of implementation be to do the 
things you just talked about? More money, more trained 
personnel, all different parts of the world? I mean, we are 
focusing on the Middle East, but what countries in the Middle 
East? What would you do if you could press a button and get 
everything you want?
    Ms. Tutwiler. I take it seriously, and it doesn't lend 
itself to a simple answer, most sincerely. Part of it is, as 
you say, if you were king of the world, it would be competent 
staff overseas, more, that would be in situations that we all 
have real security concerns, as we know.
    Mr. Ruppersberger. You talk about staff, but does that mean 
people who have expertise as social workers in creating jobs? 
That's where we are looking, because you probably don't have 
that much.
    Ms. Tutwiler. To be really candid, people have good old 
common sense, and that is--honestly, you don't have to be 
extremely intellectual to be able to do the types of things 
that I believe you and I are both on the same wavelength over. 
So that is--again, I want to be clear, I am planning to work 
within existing personnel and existing budget.
    You asked me what if, so I am going on the limb here in 
answering you. One of the issues is additional manhours, and I 
say that because in the cuts that went on in the 1990's--I now 
have mentioned in my statement we have 1,200 personnel 
overseas. In the 90's, it used to be 2,500. It shows you the 
reduction in numbers. Just on manpower, it doesn't necessarily 
solve it, but the manpower that is out there today has 
additional administrative burdens that were not on them before. 
I am trying to eliminate, where I can, admin burdens on 
personnel that are serving overseas so they can be out in the 
field and in the neighborhoods. That is one part of this.
    No. 2 is to look at most sincerely without threatening a 
very large, stable bureaucracy, honestly asking ourselves what 
programs are effective; what activities that we are doing today 
are making a difference for the United States overseas. That's 
going on right now. Within the existing budget, if you believe 
that the United States should be paying a larger percentage of 
our time to nontraditional neighborhoods, I have already found 
funds, and I hope to find more with the cooperation of my 
colleagues at the State Department, to get into those 
neighborhoods in various ways. The first way I have identified 
in the 5 weeks I have been in office is through scholarships to 
learn English. It's a window on the world. It's access to the 
cybernet cafe, to get on the Internet. It opens up a whole 
flock of avenues that I think are in our self-interest. So I 
will continue to really and truly search and probe for 
activities that make a difference.
    Mr. Ruppersberger. Thank you for your professional 
testimony.
    Mr. Shays. I thank the gentleman.
    Mr. Tierney, thank you for joining us. The gentleman from 
Massachusetts.
    Mr. Tierney. Thank you for your testimony and candor. You 
answered mostly everything we have asked you, and I don't want 
to prolong this.
    You mentioned the security concerns are real for the people 
working over there, and we have had other hearings that have 
mentioned these issues. Are we being so security-conscious in 
some of the more delicate areas for our diplomacy that our 
diplomatic corps and people associated with those efforts 
aren't getting enough contact with the local people, that we 
are not getting out and listening, and not interacting, and 
when we do get out, we are so overwhelmingly protected by 
military or other security people that there is no real chance 
to connect?
    Ms. Tutwiler. It is a problem, and I can tell you as 
Ambassador, the No. 1 priority for me, most sincerely--and it 
is a very serious responsibility--for the decisionmaking 
concerning an American community overseas; should we be out, 
should we be in shutdown, should we be in the Medinas, should 
we not, etc. There are also times, sir, they don't want to be 
with us; when their situations and their streets are tense, and 
they will--really don't want to be seen with us. So it is a 
problem. But there are many, many times when it is perfectly 
safe, calm, etc., to be out.
    And it's a large bureaucracy. There are lots of people who 
enjoy engaging. There are lots of people who want to stay 
within the walls of an embassy. But I believe there are ways to 
encourage people to go out and to--as an ambassador or senior 
leadership at the embassy--to take a leadership role and take 
yourself out and ask others to go with you. But it is a 
problem, and there is not an easy solution, and it is usually 
dictated by the situation on the ground and also an 
ambassador's leadership.
    Mr. Tierney. We have wrestled with that same problem. 
Obviously the first concern is security, but the mission is 
also a problem. And in your mind it is the Ambassador's 
decision, and he or she has to exercise the leadership or tone.
    Ms. Tutwiler. They get advice from the regional security 
officer, from others on the country team. But it's basically--
it is really true, and I learned it--an ambassador sets the 
tone and the priorities.
    Mr. Tierney. Question arises, sometimes we see with the new 
embassies that are being built, some of them are so well 
protected they are almost set apart by moat. And if people 
don't come out, you wonder how you are going to get out there 
and get that interaction where it is real and feedback on that.
    How much listening do you think we do in terms of 
developing our message for the other aspects that you are 
trying to do in terms of promoting the American position and 
policy? Are we listening to people so that they know we are 
listening? Do they feel they are getting a sense of being able 
to express the satisfaction with our policies or practices? Is 
there an opportunity within the context of our work to do that?
    Ms. Tutwiler. There are 57 countries, as you know, where 
the majority of the population is Muslim. I can't comment to 
the degree to which American personnel overseas are or are not 
listening, but I can attest to since I have been back, I 
believe we are doing a better job of listening as we formulate 
product to people who live in the region versus thinking we 
here know how, with our cultural Western American model, know 
how to make product that works in another person's culture. So 
I believe we are doing a better job of asking before we 
produce, and I think that is a step, obviously, in the right 
direction.
    Mr. Tierney. Last my question would be in terms of 
evaluation, what are we doing to evaluate our work product on 
that and then determine if we are in the right direction or 
wrong direction, and how we can improve?
    Ms. Tutwiler. It's very tricky. I cannot measure in 30 
years a high schooler who came here and had a terrific 
experience with a family in your home State. We are trying, but 
I believe the benefits of that show up year after year when 
challenged or tested. We are, in the three bureaus, actively 
pursuing and in some instances implementing--and I will get you 
the details of it instead of going through the tick tock here 
of programs--to try to do a better job of measuring and 
evaluating those activities and programs that we do. I am not 
ducking your question, but to avoid going through all the tick 
tock, I would rather get it for you.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.010
    
    [GRAPHIC] [TIFF OMITTED] 94158.011
    
    Mr. Tierney. Thank you.
    Mr. Shays. Ambassador, how would you describe the 
differences between U.S. communication style and that of the 
Arab world? I realize that could be a long answer, but in 
general, what would you describe are the differences?
    Ms. Tutwiler. What I learned, and one of my good friends in 
the news media will not like this, we in the West, or in--at 
least in America, to a certain degree have a sanitized visual. 
And by that I mean I learned and watched, whether it was 
newspaper or TV, horrific, I mean seriously horrific, visuals 
on the front pages of newspapers, not rag sheets, responsible 
newspapers. I have seen on TV, in color, visuals and film 
footage that I simply could not believe. And we sit here and 
wonder how it pushes emotional buttons. There is no doubt in my 
mind if you watch this over and over and over, it would push 
anybody's emotional buttons.
    And so where we use--I don't know the correct technology or 
term--fuzzy pictures to black out something that would be 
horrifying, a decapitated head, a baby that is blown up, etc., 
they just put it all out there. And I don't know which system 
is right or wrong to be perfectly honest with you, but it is 
very different and visual.
    I will also say that we have, what, 228 years' worth of 
incredible journalism and the standards that we expect. If you 
take only in the last 10 years electronic media, that's been 
their experience of nongovernment control, and much of it, as 
we know, is on the verbal side of this and in many instances 
irresponsible, and others, alarmists. And they have a lot of 
rhetoric going in their newly found, through the last 8 or 9 
years, independent media. So it is definitely different.
    And I will be very honest with you, and I won't take very 
much time, I used to get in the car every morning with Moroccan 
gentlemen. One was university-educated, and one was not--my 
security detail. And I would ask every morning, what did the 
Arab television tell you last night about what is going on in 
Iraq? And more mornings than not--and I would watch ours 
through AFN, because I had a direct feed to America. What 
America was seeing, they were 360 degrees away from each other.
    And 1 day, one of these gentlemen said, how do you know 
what you are being told is the truth? So in their heads--we 
keep saying, you are just being fed all this stuff. They have 
to learn, which I said, you will find out that I am telling the 
truth and that our media is telling the truth, but it is a 
long, drawn-out process and can take many days for the truth to 
finally get onto their outlets.
    Mr. Shays. That begs the question, why aren't they telling 
the truth?
    Ms. Tutwiler. I can't answer that. I don't know--and I 
believe you will have other people who will be testifying, so I 
will not get into their testimony or their questions, but I 
actually believe--I know there are some that are critical of 
the U.S. efforts in radio and television. I happen to believe 
they are wrong. I think we should have been in this game. I 
know we are in radio, but we certainly should have been in TV 
when access to information was greater 8 or 9 years ago, and we 
weren't, and I think we are paying a price for it.
    And I believe that this is an admirable thing we are trying 
to do. We are 8 or 9 years behind the loop. But if one person 
listens to our version in their language of rational, honest 
journalism, I happen to actually believe there is a good 
likelihood that the irrational on their channels will be forced 
to become more rational because people are people in the world 
over. These people are not stupid. So if there's nothing that 
has been countering it for all these years, they get away with 
it. But all of a sudden we have a shot of us saying, here's 
what really went on today, and at some point the other will 
have to get more in line with what's real.
    Mr. Shays. I am struck by a number of issues I would like 
to talk to you about. I have been to Iraq four times and three 
times outside the umbrella of the military. And there was a 
gentleman named Muhammad Abdullah Asani, and he almost grabbed 
me by the shoulders and he said, you don't know us, and we 
don't know you.
    To what extent do you think the United States has ignored 
cultural differences in its public diplomacy initiatives in the 
region of the Middle East?
    Ms. Tutwiler. I think what we have done, and I don't think 
there was any malice intended with this--I think as a Nation we 
are problem solvers. We are impatient people, and we like to 
get in, solve a problem and move on. And I believe what we did 
not do as an effective job that we could have was to ask people 
who live in that particular country, not people who live in 
parts of our country, but people who actually live there, if 
you were going to make a pamphlet, if you were going to make a 
book, if you were going to do the following, how would you do 
it.
    The other day I met for almost 2 hours with the 25 Iraqi 
Fulbright scholars that are here. I asked to meet with them. I 
wanted to ask them very specific questions and listen to their 
answers. And I asked each one of them to tell me how did you 
learn about my country, through what medium? They said, it was 
from someone who had been in the West or in your country and 
would come back and tell us about it. The second way they said 
was through movies, U.S. movies. So I actually learned 
something.
    So I believe that when we make product, that we have to be 
asking the recipients for genuine, honest input over what is it 
that will work in their culture.
    Mr. Shays. You may have answered this in a different way, 
but I actually had someone tell me I needed to ask you this 
question.
    Ms. Tutwiler. I hope it's a friend.
    Mr. Shays. He said what did you learn while you were 
Ambassador of Morocco that you didn't know, and was that the 
experience about getting in the car? When you were actually 
Ambassador of Morocco, what did you learn that shaped how you 
feel today about this whole issue?
    Ms. Tutwiler. I think what I learned the most, and it was 
not from government officials, but from real people, is that 
the portrait that regrettably has been painted of us is very 
flawed. And I found it very troubling and very disturbing that 
people do not know us. And I was very--I really struggled with 
this, and I really, really tried to the best of my ability to 
understand this. Some of it regrettably has been through our 
own product. But the picture of us is a cartoon, is an 
exaggeration, is in large measure false.
    At the same time, having said that, as we all know, 
everybody wants a visa to come here; everybody listens to our 
music and movies and blah, blah, blah. But it was probably to 
me--I think what motivates me the most is the realization that 
we really and truly have a problem, not alarmed, but a problem 
that is going to take all of our efforts and a long time to get 
out of, and we have to focus and pay attention, in my personal 
opinion.
    Mr. Shays. I am going to describe four reactions that I had 
in Iraq the last time I was there, and I want to know what the 
antidote to it is. One reaction is that I realized that you 
have this dichotomy between Iraqis wanting us to stay and they 
want us to leave. I mean, it's like both show up high on the 
surveys. The majority want us to go, and majority want us to 
stay. Figure that one out.
    One observation I realized is that the Iraqis are angry at 
us for a few things. They are angry that we weren't there after 
we had encouraged them to rebel after the Gulf war, and the 
Republican Guard had been left intact and annihilated the Kurds 
and a lot of Shiites. They were angry and annoyed with the 
embargo because they didn't blame Saddam, they blamed us and 
the U.N. They are angry in another way because they don't think 
we are going to stay, and they think we are going to leave. And 
their anger is I don't know whether to be a friend to you, 
because I'll befriend you, and then you'll leave, and then I 
will have to deal with what happens afterwards. They were angry 
in a way because we are the government now, and they never had 
a government that they can like or trust.
    Does public diplomacy have a role to play in any of the 
issues I mentioned.
    Ms. Tutwiler. We absolutely have a role to play. And I, 
too, served in Iraq, in Baghdad, and went all over and had an 
opportunity to ask questions and listen to them, and I agree 
with you on exactly what you are saying.
    We absolutely have a role to play, and it is not just the 
State Department. There are many, many things that I know that 
you know of that our military is doing every day in the 18 
regions all over that country to help people, whether it is to 
put in their gas lines, to rebuild schools, to reinstitute 
hospitals, and the people are aware of that, and they are 
watching us.
    As you know, or may not know, the State Department is going 
to have shortly the largest contingent of public diplomacy 
officers deployed anywhere in any country in Iraq working on 
various sundry things that I hope are effective and do help 
educate many of these people over the very things that you were 
talking about, and there is much that we are doing there that 
is to the good. I hope it's getting out. As you know, the 
Fulbrighters are here, and I hope you had an opportunity to 
meet with them. We just had the Iraqi Symphony here. And 
Americans, as Americans are, we are so generous; we sent them 
back each with a new instrument, including a new Steinway 
piano, and an American company volunteered to pay to get that 
piano back to Iraq. Their libraries have been destroyed, their 
musical libraries, and the Kennedy Center put out calls to our 
American music libraries and shipped back some 500 new sets of 
classical music.
    There are many, many things that Americans are doing in 
Iraq that I hope over time will buildup what I think you are 
basically asking me is trust.
    Mr. Shays. I just have two more questions. Why don't I go 
to you and come back.
    Mr. Tierney. My question was rather general. As members of 
this panel were to travel to Morocco, what should they see and 
do there, and what would benefit their understanding about the 
things we discussed today?
    Ms. Tutwiler. One of the things I am urging all U.S. 
officials when they travel and you, Congress, when you travel, 
in addition to the standard CODEL or the standard U.S. official 
visit in a place, push back on embassy personnel and say, I 
want to have a meeting with normal--in this case, it would be 
Moroccans. I want to have a dialog. I want to be able to have 
an unstructured conversation so that I can listen.
    Obviously, it is very important each time you travel and 
makes a huge impact for our country most sincerely when you 
meet with the leaders and with the officials. But to be able--
--
    Mr. Tierney. I'm only smiling because we are running up 
against the same things we ran up before. There is so much 
caution on the security things. But I agree with you, I think 
that is absolutely essential.
    Ms. Tutwiler. The impact it makes. Plus we become more 
educated by having the opportunity to have a dialog and listen 
to people who are not government officials. I think it is 
really useful for all of us.
    Mr. Shays. I am trying to visualize broadcasting just for a 
second. You have al-Jazeera and al-Arabiya. Do you visualize an 
organization that would compete head to head with these two 
organizations? Would you visualize that we would have a 
broadcasting capability by satellite that would be able to go 
head to head with these organizations?
    Ms. Tutwiler. Well, we are getting ready to. The curtain is 
going up this Saturday, I believe, at 10:30 a.m., and these 
gentlemen are going to testify about this. I mean, we are going 
to try. And I know and have read all the back and forth in the 
press, but I again ask those who are criticizing this to 
sincerely think about it; is it better 20 minutes of a 
different view and balance than not at all? And maybe we will 
get better and there will be 6 hours of us and 6 hours of them.
    I don't think the issue most sincerely is trying to make 
them go away. That's not going to happen. They have emotionally 
engaged and internalized these channels. This is not going to 
happen. So, in my mind, how do we get on the playing field? And 
I only know one way, which is what is getting ready to happen.
    Mr. Shays. When I was coming back in January, we met with 
the King and Queen of Jordan, and Queen Rania expressed 
absolute amazement that this country, with all its capabilities 
and talents, has taken so long to have done this, because in 
April we were talking about it. And I just am delighted that 
you will be focused on this issue.
    And I guess I want to ask as my last question--what kind of 
control does a Secretary have in D.C. over this issue 
worldwide, the whole issue of public diplomacy? Do you have 
direct ability to replace people in various countries that you 
do not think--who you think may not be performing the way they 
need to be?
    Ms. Tutwiler. No. I don't know of any under secretary in 
any department that has that authority over the career 
establishment. I'm just not aware of it.
    What you have to do in this vast bureaucracy that is 
worldwide is work very, very hard to try to formulate a plan, a 
strategy, whatever you wish to call it, that's credible, and 
then try to get buy-in. Because if you get buy-in from the 
field force, then they are obviously going to implement it. And 
that takes a lot of effort, and it takes a lot of focus and 
time to try to get that to happen.
    I don't know whether I will be successful or not, but I 
know that when I came here one of the complaints I heard was in 
the integration of USIA, that no one listened to the field. 
Well, I've changed that. We are listening. I have created--or, 
having created this new site for public diplomacy, officials, 
regardless of rank or tenure, can all communicate, including 
myself. So that's across all regions. So if there is a young 
Foreign Service officer that is really doing a really effective 
program in, say, South Africa, and he views that it might be 
effective in other countries, all of a sudden we can share this 
with every public diplomacy official.
    Well, I think this has potentially some benefit and that we 
can get something done, but it is something that--as you know, 
I served previously in the State Department, and it is 
something that you have to get buy-in from the field force and 
from personnel.
    Mr. Shays. You have been great. Is there anything that you 
wish we had asked that you want to put on the record, because 
we would love you to put it on the record. Is there anything 
that you think needs to be said that hasn't been put on the 
record by you?
    Ms. Tutwiler. Not that I can think of. Thank you for the 
opportunity, and thank you very much for caring and for your 
interest, all of you, most sincerely, because it really does 
matter, and we are all in this together, and we have all got to 
try--like when you take your next trip, push back on here are 
some things that I want to do, and I am in X, Y, Z country.
    Mr. Shays. Well, we agree. And you do very important work, 
and we wish you well.
    Ms. Tutwiler. Thank you very much.
    Mr. Shays. Hold on just 1 second.
    Mr. Tierney. Can you just tell me quickly when that system 
for all the DP offices to interconnect is going to be up and 
running?
    Ms. Tutwiler. We started--I learned about it during my 
confirmation preparations, and I've got a gentleman in the 
African Bureau who is helping me. And he told me within 2 weeks 
we will be doing this. So that's pretty fast for State--for any 
large bureaucracy.
    Mr. Shays. Thank you so much.
    Ms. Tutwiler. Thank you.
    Mr. Shays. We will go to our second panel here.
    Thank you Ambassador.
    Our second panel is Kenneth Tomlinson, chairman, 
Broadcasting Board of Governors, accompanied by Norman Pattiz, 
founder and chairman, Westwood One, and member of the 
Broadcasting Board of Governors; and Harold Pachios, chairman, 
Advisory Commission on Public Diplomacy. We welcome them. And I 
am going to have you gentlemen stand so we can swear all of you 
in. And we have two testimonies and three answering questions 
is how we are going to proceed.
    Raising your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record that all of our witnesses 
have responded affirmatively.
    And, Mr. Tomlinson, we will start with you.

  STATEMENTS OF KENNETH Y. TOMLINSON, CHAIRMAN, BROADCASTING 
 BOARD OF GOVERNORS, ACCOMPANIED BY NORMAN J. PATTIZ, FOUNDER 
   AND CHAIRMAN, WESTWOOD ONE, MEMBER, BROADCASTING BOARD OF 
GOVERNORS; AND HAROLD PACHIOS, CHAIRMAN, ADVISORY COMMISSION ON 
                        PUBLIC DIPLOMACY

    Mr. Tomlinson. Thank you, Mr. Chairman.
    I am joined here today by two splendid gentlemen, Norman 
Pattiz, the father of Radio Sawa and an irrepressible force for 
international broadcasting; and Harold Pachios, the former 
chairman of the Advisory Commission on Public Diplomacy. He is 
still a member, and a man who's credited years ago with 
proposing that we do Middle East television.
    In recent months and years, we've heard a great deal about 
public diplomacy from think tanks and study groups and 
academia. They speak of strategic direction and process and 
policy coordination. I submit, with all due respect, we should 
be focused on vision and leadership and action. That is why, 
with the enthusiastic support of President Bush and key leaders 
of the administration and Congress, the BBG will be launching 
later this week an Arabic-language satellite television service 
to the Middle East.
    It is no accident that President Bush speaks of open debate 
and truth when he describes what this network will be to the 
people of the Middle East. The network will be called Alhurra, 
Arabic for ``the free one.'' We will challenge the voices of 
hate and repression with truth and voices of tolerance and 
reason. The people will hear free and open discussions, not 
just about the conflict in the Middle East, but also about 
subjects critical to that region's future. We are talking about 
economic development and human rights and respect for 
minorities.
    I wish I could take you this afternoon out to Alhurra's 
broadcast complex in northern Virginia where in a little more 
than 4 months an abandoned building has been transformed into a 
state-of-the-art broadcast facility. The set designs are 
magnificent, worthy of what the world would expect from the 
United States. Since October, some 900,000 feet of cable have 
been installed in this facility.
    Look over there. Norm, you're to be congratulated. This is 
just extraordinary progress forward of where we need to be.
    But what is also truly extraordinary is the sea of Middle 
Eastern faces, newsmen and newswomen enthusiastically preparing 
amidst the work of carpenters and electricians to launch this 
network. Some have said Alhurra will be the most significant 
development in international broadcasting since the launch of 
Voice of America during World War II, and I believe that will 
be the case.
    The Broadcasting Board of Governors has been in business 
for less than 10 years. We were created by Members of Congress 
led by Delaware Senator Joe Biden who understood the role 
broadcasting played in our victory in the cold war. Solidarity 
founder Lech Walesa once was asked, is there a relationship 
between Radio Free Europe and the fall of communism and the 
rise of free and democratic institutions in Poland? And he 
replied: Would there be an Earth without the Sun?
    Our competitive edge in the Middle East is our very 
dedication to truth and free and open debate, and we will stand 
out like a beacon of light in a media market dominated by 
sensationalism and distortion, as we heard earlier today. That 
is what brought immediate success to the Voice of America's new 
Persian-language satellite television program, ``News and 
Views,'' that's broadcast to the people of Iran.
    Typical of what creative broadcasting can do is the new 
segment launched by News and Views called Your Voice. Iranian 
viewers were invited to submit e-mails on the controversy 
surrounding the February 20 Parliamentary elections, from the 
banning of candidates to calls for election boycott. We opened 
a dialog that is allowing Iranians to share their view with 
other Iranians, and the response has been extraordinary. Allow 
me to pay tribute to Blanquita Cullum, one of our board members 
who played such an important role in the establishment of this 
service last summer.
    It is no accident that satellite television is a vehicle 
for our latest broadcast initiative. As Thomas Friedman has 
explained, satellite television is not just the most important 
media phenomenon in the Middle East, it is also the most 
important political phenomenon. That is why we at the BBG 
believe that satellite television is to our future what 
shortwave radio was to our past.
    My predecessors likewise brought great innovation to radio 
broadcast that proved vital to the success of our Afghan radio 
network which broadcasts in Dari and Pashto and our youth-
oriented Radio Farda to Iran and Radio Sawa to the Arab world.
    When Norman Pattiz was in the process of creating Radio 
Sawa, he traveled throughout the Middle East to negotiate 
heretofore unattainable agreements for American AM and FM 
transmitters in Middle Eastern countries so that we could be 
heard on radios of choice in the region. And the same is true 
with our Internet technology.
    Radio Sawa has been a phenomenal success. I have submitted 
for the record a comprehensive ACNielsen survey which 
demonstrates Sawa's market dominance and other documents, but I 
will submit that accurate news and serious content is equally 
important in defining the success of Sawa. Under the leadership 
of Mouafac Harb, Sawa's outstanding news director who will 
assume the same post for Alhurra, the station has been a source 
of a host of shows that explore freedom and democracy. Typical 
of these are the Free Zone, a 30-minute weekly review and 
discussion of democracy and freedom as they relate specifically 
to the Middle East; Ask the World Now, where U.S. policymakers 
respond to questions from Middle East listeners; and Sawa Chat, 
where reporters go to the streets in the Middle East with a 
question of the day. And, of course, the latest initiative that 
we are pursuing is a youth-oriented Urdu broadcast to Pakistan.
    Mr. Chairman, critical to this initiative is one of your 
constituents, Steve Simmons, a vital member of our board.
    You asked that I address coordination among Federal 
agencies, and I do so in my testimony that I submitted for the 
record.
    As much as we value coordination, we also appreciate this 
administration's dedication to the firewall that separates the 
short-term policy objectives of instruments of government and 
our responsibility to journalistic independence in order to 
achieve audience credibility. We believe it is important to 
maintain the strength of public diplomacy and the traditions of 
international broadcasting. I am convinced that we will not be 
successful in our overall mission to deliver our message to the 
world if we fail to grasp that these are two independent 
spheres, and they operate according to two sets of rules.
    It is very important that those who speak for our 
government take America's message to the world passionately and 
aggressively. We should not be ashamed of public advocacy on 
behalf of freedom and democracy in the United States.
    International broadcasting, on the other hand, is called 
upon to reflect the high standards of independent journalism as 
the best means of demonstrating to international audiences that 
truth is on the side of democratic values. These arms of public 
diplomacy should be parallel pursuits, because the 
effectiveness of either is adversely affected when one attempts 
to impose its methods on the other.
    I remember 30 years ago when RFE/RL and VOA began 
broadcasting the Watergate hearings. Those broadcasts caused 
heartburn for many in Washington. But looking back we see they 
constituted a veritable civics lesson on the importance of 
separation of powers and rule of law and aspects of democracy 
you have to understand to understand our system. Over the years 
I've heard so many citizens of post-Communist countries tell us 
how these broadcasts helped them understand the real meaning of 
freedom and democracy.
    I would like to conclude with a word about our future. In 
the years between the end of the cold war and September 11, 
international broadcasting saw its budget reduced 40 percent in 
real terms. Cuts in personnel followed numerically close 
behind. Today, less than 3 years after September 11, with the 
administration's and Congress' support for expanding broadcast 
efforts in the Middle East and Muslim nations, the BBG has 
established a record of success that is a sturdy foundation for 
future growth. This record points toward our global 
broadcasting vision of 2010 that is currently in the works.
    We must build on our achievements and reach out to others 
in the world of Islam and beyond whose sources of information 
about the United States and democracy have misled them and 
continue to do so today. Again, the truth remains our constant 
guide. When others have the assets to have access to the facts 
for which BBG stands, we believe that we will have made a 
material and lasting contribution to the security of the United 
States.
    Again, I thank you for allowing this statement, and I look 
forward to hearing from my colleagues.
    Mr. Shays. Thank you very much, Mr. Tomlinson.
    [The prepared statement of Mr. Tomlinson follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.012
    
    [GRAPHIC] [TIFF OMITTED] 94158.013
    
    [GRAPHIC] [TIFF OMITTED] 94158.014
    
    [GRAPHIC] [TIFF OMITTED] 94158.015
    
    [GRAPHIC] [TIFF OMITTED] 94158.016
    
    [GRAPHIC] [TIFF OMITTED] 94158.017
    
    [GRAPHIC] [TIFF OMITTED] 94158.018
    
    Mr. Shays. Mr. Pattiz, I was just reading your incredible 
resume, and we look forward to having your participation in 
these questions in just a little while.
    I will go first to you Mr. Pachios. And you have a 
statement, I believe. Correct?
    Mr. Pachios. I just have a relatively short statement, Mr. 
Chairman.
    First, thank you for inviting a member of our Commission, 
the U.S. Commission on Public Diplomacy, to testify here. We 
have been around for 50 years. All the members are appointed by 
the President, confirmed by the Senate. And this has been our 
focus since shortly after World War II.
    I am no longer the chairman. A very distinguished woman 
from Arizona, Barbara Barrett, is now chairman; I am now a 
member. And I am accompanied by another member from Florida, 
Tre' Evers, who is sitting just behind me.
    I want to say from--I've been on this Commission for 11 
years, and I've traveled around the world, and I've talked to a 
lot of people about public diplomacy long before September 11, 
and there weren't a lot of people paying much attention to it. 
Radio Sawa and Middle East television network Alhurra are 
extremely important initiatives. I served on the Djerejian Task 
Force on Public Diplomacy in the Arab and Muslim world with 
many, many distinguished people. I differ from their 
conclusions mostly in the area of Sawa and Middle East 
television network. I think they are extremely important.
    Ninety-seven percent of the people in the Middle East get 
news and information from television, and Members of Congress 
who travel to the region get in the car and drive around and 
see all of these television receivers on every balcony 
everywhere. People in every village get their news and 
information from television.
    And I would also say as an aside here that Members of 
Congress probably understand opinionmaking better than anybody 
in this town. They understand how to reach people, how to 
deliver a message, and how to have people understand what they 
are saying. So there is no mystery to this. It is in many 
respects the power of television and the communications 
revolution, including the Internet, because the Internet will 
become as important as television.
    Al-Jazeera and al-Arabiya present some opportunities. We 
have to do a much better job of booking people and coordinating 
the booking of people on these television stations. We don't 
use third-party validators very well. We don't have anybody in 
our government charged with just doing that, and they ought to 
be. But there is an anti-American bias, and everybody 
recognizes it, with those stations. And keep in mind, when 
Charlotte Beers had this advertising campaign, it was ill-
fated, when she wanted to put ads on television, these stations 
wouldn't carry the ads; it was paid advertising, and they 
wouldn't accept it.
    So, if Sawa and Middle East television only broadcast 
objective news, over time, as the VOA did after World War II 
and during the cold war, it will be effective and important.
    Face to face is good, I agree with what the Under Secretary 
said. Face to face is good, but most face to face is with 
elites. And the Under Secretary stressed that we have to begin 
changing public diplomacy, we have to maintain what we have 
traditionally done with elites, but we have to redirect our 
focus to nonelites and the masses, and you can only do that 
effectively through radio and television. It's the same way we 
affect public opinion in our own country.
    A couple of other quick points. Since September 11 there 
have been innumerable studies and reports issued by a great 
number of organizations, and they all generally say the same 
thing: More money for the State Department to do traditional 
public diplomacy programming such as exchanges, information 
programs, books, magazines, more people. And we should continue 
to do that. Long-term public diplomacy is important; over the 
last decade we let it slip. But we have to emphasize 
communication with mass audiences and to use the most effective 
tools we know of today, which is television and, in the future, 
the Internet, and I think what these gentlemen have done in a 
very short time is remarkable.
    One final thing. It is true that our image abroad is tied 
to a large degree to what we do and what we say. We need to 
elevate this process of determining what we are going to say to 
mass audiences in the Middle East and elsewhere to the White 
House. I worked in the White House in the Johnson 
administration; I was the assistant White House press 
secretary. We knew how to coordinate a message to domestic 
audiences. Global audiences are now as important as domestic 
audiences; they affect everything we do, and so we need to do 
for global audiences what we have done for domestic audiences 
in the White House all these years.
    Mr. Shays. Thank you very much.
    [The prepared statement of Mr. Pachios follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.019
    
    [GRAPHIC] [TIFF OMITTED] 94158.020
    
    [GRAPHIC] [TIFF OMITTED] 94158.021
    
    [GRAPHIC] [TIFF OMITTED] 94158.022
    
    [GRAPHIC] [TIFF OMITTED] 94158.023
    
    Mr. Shays. Am I pronouncing your name correctly? I want to 
say Pachios.
    Mr. Pachios. Yes, you did.
    Mr. Shays. Am I pronouncing your name--Pattiz? Is that the 
way I say it?
    Mr. Pattiz. Right on the money.
    Mr. Shays. OK. Thank you.
    Mr. Pachios, I just want you to know, your most important 
job that you ever had was when you worked for the Peace Corps.
    Mr. Pachios. Thank you, Mr. Chairman. That was actually the 
very best job I ever had, and I was the 35th employee of the 
Peace Corps in 1961, actually before it was authorized by 
Congress.
    Mr. Shays. Let me just say job well done.
    Mr. Pachios. Thank you.
    Mr. Shays. Mr. Pattiz, I'm thinking of how you set up an 
extraordinary network, both you and Mr. Thomas. I just want to 
thank you both for serving on the broadcast board, the 
Broadcasting Board of Governors. You know, this isn't something 
you have to do, and it is very appreciated. But I am amazed, 
frankly, that it has taken us so darned long to have involved 
you in this process. And I need to know, was that Congress's 
fault? Was that DOD's fault? Was that State Department's fault? 
Was it the White House's fault? Was it your fault? I mean, it 
just stares us in the face. You should have been there; you 
should have been there a long time ago.
    Mr. Pattiz, I'm going to start with you.
    Mr. Pattiz. Thank you very much.
    When I joined the Broadcasting Board of Governors in the 
year 2000, I was appointed by President Clinton, I was then 
reappointed by President Bush. I was the only broadcaster on 
the Broadcasting Board of Governors. I'm happen to say that 
under Chairman Tomlinson's leadership, we have several 
broadcasters on the Broadcasting Board of Governors and a lot 
of folks who are very savvy with the media.
    I'm not a government person, I'm a broadcaster by trade. 
Because I was the only broadcaster on the board, I was given 
the assignment of being the chairman of the language review 
subcommittee, which is the subcommittee that is mandated by 
Congress to, on an annual basis, take a look at how we spread 
our resources over the 60-plus languages that we broadcast in. 
And in doing that, one particular area of the world stood out 
to me not because of what we were doing, but because of what we 
weren't doing, and that area is the Middle East. Our total 
commitment to the Middle East was 7 hours a day of Arabic 
language programming from the Voice of America in a one-size-
fits-all approach to the entire region broadcast primarily on 
shortwave, which nobody listened to. I reported that back to 
the board, and I think it was, ``Congratulations, Norm. You are 
now the chairman of the Middle East committee. Go fix it.''
    So we jumped on a plane with some staffers and visited a 
number of countries in the region, and have since visited that 
region in the last year and a half three times, and found out 
that we could get 21st century distribution, AM/FM, digital 
stereo distribution, throughout the region. And in doing some 
research--and let me just say that Radio Sawa and now Alhurra, 
our television network, are the most research-driven media 
projects, I think, in the history of international 
broadcasting.
    For Radio Sawa, we do weekly research every week to 
determine what will resonate with our audience. You know, we 
have a saying which is, marry the mission to the market. We 
need to know--very much in keeping with what Secretary Tutwiler 
was saying, we need to connect with our audience and determine 
how we are going to attract them to listen to what our message 
is. This isn't like the cold war in the Middle East where there 
were lots of people yearning to hear what we had to say who are 
under the thumb of oppressive dictatorships. In the Middle East 
we are very unpopular.
    There is a wide variety of news organizations, and they 
believe that they are getting plenty of information. But that 
media environment is characterized by hatespeak on radio and 
television, incitement to violence, disinformation, government 
censorship and journalistic self-censorship. So it is within 
that environment that the Arab street gets its opinions not 
only of U.S. policy, but of our people, of our culture, of our 
society, of all things American.
    So we didn't have a horse in this race, we were not on the 
playing field, and we put together the plan for Radio Sawa, 
which is to focus on the under-30 audience with a primary 
objective of really establishing that core 15 to 30 audience by 
using American and Arabic hit music to attract the audience, 
with about 25 percent of our programming devoted to news and 
informational programming. And I'm happy to say that wherever 
Radio Sawa is heard on FM, and in many, many other places, it 
is not only the most listened to and most popular radio station 
in those markets, but it also has a very, very large percentage 
of people who feel that the news is reliable and credible. And, 
more important than that--and then I will stop talking--in the 
latest survey that was done by ACNielsen--not our internal 
research, but by ACNielsen--and in other research projects that 
were not started by us, but where the information was shared 
with us, by a margin of 3 to 2, Sawa listeners have a far more 
positive view of the United States of America than do non-Sawa 
listeners.
    Mr. Shays. But before going on to Mr. Tierney, because I 
want him to get active in this, and then I will come back, I 
want to know your reaction, all three of you, to the fact that 
you knew that we simply weren't stepping up to the plate to 
counteract al-Jazeera and al-Arabiya, and you had to know that 
we could do a good job to respond. And so maybe you can't tell 
me why it didn't happen, but give me some confidence that this 
was something that you guys were thinking about.
    Mr. Tomlinson. Mr. Chairman, we had to change the way this 
town reacts to broadcasting and all we do. As I said, in the 
cold war and September 11, there was a 40 percent reduction in 
spending on broadcasting.
    Mr. Shays. So it was somewhat a funding issue?
    Mr. Tomlinson. It was absolutely a funding issue.
    Mr. Shays. OK.
    Mr. Tomlinson. You know, the great movie The Right Stuff, 
no bucks, no Buck Rogers. And it's also--it's more expensive to 
produce information-driven programming than it is to play 
music.
    Mr. Shays. But I happen to believe that if we are spending 
billions, that there are probably some American soldiers who 
are dead today because we just didn't, frankly, deal with the 
issue of diplomacy, the public diplomacy, in a much more 
effective way.
    Mr. Tomlinson. And if I can say one more thing. It's so 
hard in this town to get around traditional views of public 
diplomacy. Sometimes some of my colleagues are involved in 
trying to hang onto old ways of doing things in public 
diplomacy. They are kind of like whipmakers in 1920 when faced 
with the automobile, saying, no, we need these whips. Well, we 
also need broadcasting, we need television, we need radio, we 
need radio people will listen to. Television is expensive.
    Mr. Shays. Thank you.
    Mr. Pachios. Bureaucracy is risk-averse. And in this town, 
as all of you know very well, it is hard to change things. 
There are entrenched interests. It moves very, very slowly. 
Very slowly.
    I happen to agree with what Mr. Tomlinson said. It's--a lot 
of things were overdue. You just don't change the way things 
are done very easily.
    Mr. Shays. I'm looking for someone to describe their 
reaction, though, to how--you must have felt, my God, why 
aren't we there? What do we need to do to get there? Why isn't 
DOD saying get there? Why did they sign a contract with an 
outfit that had basically no experience?
    I mean, tell me that these were things that you were 
thinking. Mr. Pattiz.
    Mr. Pattiz. Oh, absolutely I was thinking about that. I am 
still thinking about it today. But there has been a--you know, 
a lot of people are very concerned about change when they have 
been with an institution for 30 or 40 years and always done it 
exactly the same way. It's pretty commonplace. The chairman is 
fond of saying, you've got to crack a few eggs to make an 
omelette. Believe me, doing Radio Sawa we had to crack a few 
dozen eggs. And a lot of criticism of Radio Sawa comes from 
people within our own family; you know, within international 
broadcasting from other services and from people who have 
worked in international broadcasting in the past who believe 
with great conviction that using 21st century broadcasting 
techniques is somehow anathema to the mission that we have at 
hand. My feeling is where the crime lies is going out and 
having journalists put themselves in harm's way to tell 
important stories and have nobody listen.
    Mr. Shays. Well, let me just say--I'm going to give you the 
floor. I'm going to make one observation. And I hear you loud 
and clear. I think the thing I am remembering most from what 
the Secretary said to us is that--what I'm going to take from 
this is that al-Jazeera and al-Arabiya are going to become 
better in the competition, and that they are not going to 
disappear, but they are going to be forced to be more 
realistic, more straightforward. And the sooner that happens, 
the better, obviously.
    I am excited if that will be the result because, in 
essence, it won't be two positions versus one, it will be one 
position that will help make maybe those other two programs you 
can watch and feel like you are getting more accurate 
information from.
    Mr. Pattiz. You know, Mr. Chairman, a lot of the criticisms 
that I am hearing in advance of the launch of Alhurra, our 
television network, are exactly the same criticisms that I 
heard prior to the launch of Radio Sawa, our television--I 
mean, our radio network. In the case of Sawa, we have research 
to back it up. In the case of Alhurra, we think that in short 
order people will understand why it's important for us to be 
there.
    But there are a number of people--and I read it in the 
Arabic Press all the time because I get copies of the Arabic 
Press, and they are translated and what have you. There is an 
attitude that because we are going to put on a television 
station, that somehow that means that we don't think they have 
a free press because there is a tremendous feeling of 
victimization within the region on a number of different 
issues.
    The fact of the matter is that al-Jazeera and al-Arabiya 
are in the early stages of being a free press. They feel that 
they are free to report it the way they see it; they just don't 
feel like they are obligated to present any balance or maybe 
the opposite point of view like they really ought to do it.
    Mr. Tomlinson. Or truth.
    Mr. Pattiz. Well, in some cases absolutely. But I think, 
when the history of Middle East broadcasting is written, that 
they will show--there will be a time when you will see these 
outlets of networks move toward a more generally accepted 
journalistic approach to what it is that they do. And I think 
the fact that we are there will help spur that on. So I agree 
100 percent with what you said.
    Mr. Shays. I will just say, given that we don't have those 
two networks here, I want to acknowledge the fact that there 
are some in the Arab community who can draw on past experiences 
and be very suspicious of the Western world, to some measure 
obviously the United States, and that is a reality, too. And I 
have empathy for how they could have a view today that maybe we 
won't be what we know we will be.
    I really appreciate you all being here.
    Mr. Tierney, you have the floor for as long as you would 
like.
    Mr. Tierney. I won't need that long. Thank you.
    Thank you, gentlemen. When you finish trying to lift the 
discourse from hatespeak radio over there, I hope you come back 
over here and do a little work. There's a tremendous amount of 
work to be done on hatespeak radio that can be accomplished and 
maybe lift us to a better discourse. And the same goes to 
balance in all our media.
    Mr. Pattiz, I don't want to be repetitive, but your report 
made a statement, and I would like you to just extrapolate on 
it or expand a little bit on it. You said that an attractive, 
less costly alternative or supplement to METN may be the 
aggressive development or programming and partnership with 
private firms, nonprofit institutions, and government agencies 
both in the United States and the Arab and Muslim nations. This 
programming can then be distributed through existing channels 
in the region.
    Mr. Pattiz. Yes. That's a recommendation from the Djerejian 
report. And I would say that's just an erroneous conclusion. It 
presupposes that the indigenous media is not the problem, that 
it's the solution. I mean, if we were going to take our 
programming and present it to the indigenous media, I mean, 
first of all, why would they carry our news? They have their 
own news. And second, if they won't even carry the ``shared 
value'' commercials that were paid for by Under Secretary 
Charlotte Beers when she was doing it, what makes us think that 
programming of substance that we feel it is important to 
communicate to the Arab world would even be given a fair chance 
to be on the air; and even if it was on the air, that it 
wouldn't be buried? And if it was on the air and it wasn't 
buried, we can't control what goes in front of it or behind it.
    It's incredibly important that we control our own 
distribution pipeline so that we can program this in the same 
way they can program theirs. If we are going to compete, don't 
tie one hand behind our back.
    So the model of using a Corporation of Public Broadcasting-
type model, to me, is foolhardy because that simply means we 
are in the syndication business depending upon independent or 
indigenous broadcasters to carry our program as opposed to 
being a legitimate network that controls its programming from 
start to finish so that we can compete effectively with other 
networks that do exactly the same thing.
    Mr. Tierney. Thank you.
    I would like each of you to respond to my next questions.
    How are we going to have a network that's balanced between 
a positive message about the United States, which some would 
term propaganda, and the objectivity in such a way that we'd 
foster trust? Who is going to determine what is objective, or 
the objectivity, and how is an audience going to be persuaded 
that, in fact, it is objective?
    Mr. Tomlinson. I believe we did that consistently 
throughout the postwar years on Voice of America and Radio Free 
Europe, and you saw the results with the end of the cold war. 
It's tough, but it's not rocket science. First of all, you go 
with the truth; you report what's going on. And second, you 
focus on what the real issues are. And as I said before, I 
think the real issues involve economic development and--for 
example, in the Middle East they are every bit as important as 
the issues that inflame.
    Mr. Pachios. Congressman, I think that both of you asked a 
question that's important here. There is controversy over this. 
I mean, the report you cited, I happen to be a member of that 
group that issued the report, and they were terrific people; 
one of them here, a person who I have enormous respect for. 
People think, well, this television or--this television 
initiative won't have enough propaganda in it. Why are we 
spending $65 million if we are really not going to sell 
America, if we are just going to be an objective organization? 
And the people say the same of Sawa. They say, well, how is it 
moving the needle? That was what people on our commission said. 
How is it moving the needle if you have all this music and then 
some straight news?
    But VOA is a good example. There are many people who 
matured in the years of the cold war in Eastern Europe who were 
moved by VOA and objective news.
    There's more to do. I mean, actually one of my colleagues 
and I traveled to Hollywood last year. We met with Norm, we 
went to television programming people, people that do A&E, the 
History Channel, biographies. They want to participate in this, 
too. And we can get Arab producers, people in the Middle East 
to produce programming about America through their eyes to put 
on these stations. So there is a lot that we can do to show our 
culture and not be a biased organization.
    Mr. Tomlinson. The debates between moderates and radicals 
on Alhurra are going to be critical. I believe the moderates 
will win those debates. I believe that the people of the Middle 
East have rarely heard the truth about what's going on in the 
region, the underdevelopment, the lack of freedom and 
democracy, and all these things will become naturals for our 
talk shows, for our call-in shows.
    Mr. Pattiz. If we are perceived as a propaganda 
organization and we are perceived----
    Mr. Shays. Is your mic on?
    Mr. Pattiz. Sorry. If we are perceived as a propaganda 
organization or simply a mouthpiece of the U.S. Government, we 
will--the same fate will befall us that's happening to IMN 
right now. Our stock in trade is credibility.
    Let me give you a quick example with Sawa, because we have, 
you know, almost 2 years of Sawa to look back. When we first 
started, the first place we started broadcasting was Amman, 
Jordan; 60 percent Palestinian either by birth or heritage, not 
a place that any of the polls lately have shown has a 
particularly----
    Mr. Shays. If you could just speak a little slower. I'm 
actually interested in what you are saying.
    Mr. Pattiz. OK.
    Mr. Shays. And my mind is----
    Mr. Tierney. The weird part of that is that most of us in 
New England speak that fast all the time, and it isn't a 
problem for us.
    Mr. Pattiz. I will do that. But in the case of Sawa, when 
we launched in Amman, Jordan, which was the first place that we 
launched, and we did research immediately thereafter, within 30 
days, in its target audience 30 and under, Sawa was viewed by 
the 30 and under population as their favorite radio station 
among 50 percent of those surveyed. And among 90 percent of 
those surveyed, they indicated that they had listened to the 
station within the last 24 hours. But at that time, 30 days 
after we launched, only 1 percent of the audience said that 
they listened to the news or that they thought the news was 
reliable and credible. A few months later, 50 percent still 
said it was their favorite radio station, 90 percent still said 
they listened to it within the last 24 hours, but 40 percent 
said that the news was reliable and credible and that they 
listened to Sawa most for news.
    That's an incredible, I think, example of what we can 
accomplish--of what we have accomplished on radio, but what we 
now need to accomplish on television. They are two entirely 
different mediums; they are very compatible, and I think we've 
learned a lot of good lessons, and we know a lot about what we 
are doing in this area.
    Mr. Tierney. You answered my next question, which was, you 
had made a statement that the large number of people who listen 
to Sawa thought it was credible, and I was going to ask you how 
that was measured. I guess by surveys. Who's conducting the 
surveys?
    Mr. Pattiz. We have our own internal research that we do on 
a weekly basis, which is put together by Edison Research here 
in the United States. Edison Research is a company that is used 
heavily by commercial television and radio stations and 
television networks to do audience research to determine what 
their programming is going to be and what their formats are 
going to be. They subcontract out with local research firms in 
the region to go out and actually physically do that. We also 
commissioned ACNielsen to do a study for us. And there were two 
other studies that have been done, one by the Oxford Research, 
and the name of the third escapes me.
    But the important point about all of these studies is they 
all showed the same thing: The numbers may vary a little bit, 
but they all show that Sawa is very important and most listened 
to among the target audience listeners that we are focused on.
    Mr. Tierney. Were any of those not commissioned by you?
    Mr. Pattiz. Oxford Research was not commissioned by the 
BBG, and then there is another one which name escapes me, its 
initials.
    Mr. Tierney. And that was also independent?
    Mr. Pattiz. That was independent, yes.
    Mr. Tierney. Mr. Chairman.
    Mr. Shays. I am exposing my ignorance, which I sometimes do 
in chairing the committees or asking questions, but I always 
made an assumption that Voice of America was propaganda. I do 
accept, Mr. Pattiz, your point that honesty attracts, but let 
me understand the format. Is it conceivable that this program 
will--this new Alhurra--that's the name, correct----
    Mr. Pattiz. That's correct.
    Mr. Shays [continuing]. Will be critical of something that 
happens by U.S. officials if criticism is deserved?
    Mr. Pattiz. Mr. Chairman, let me just say this. I think 
it's fortuitous that we will be launching this channel on 
Tuesday--pardon me, on Saturday--and that we are right now in 
the middle of an election year. We will cover what's going on 
in the elections over here, so I think there will be a number 
of things said by a number of people that will make everybody 
equally concerned on both sides of the aisle.
    Mr. Shays. So how do you do that? In other words, you give 
total independence to this group, or what happens?
    Mr. Pattiz. Well, first of all, we have professional 
journalists who run this operation, who use professional 
journalistic standards. And, Mr. Chairman, maybe you want to 
talk a little about those standards being a career journalist 
yourself?
    Mr. Tomlinson. Mr. Chairman, when the Voice of America went 
into business in World War II, we said the news may be good 
from the standpoint of the United States, and the news may be 
bad from the standpoint of the United States, but we are going 
to give you the truth, and that's been our tradition through 
the years. I was director of the Voice of America in the first 
Reagan term, and as I say, in the decade before that we had the 
Watergate hearings; we broadcasted the Watergate hearings. You 
have to cover the news.
    But you can also cover the stories behind the stories. And 
it's very, very important to, as I say, cover the economies in 
the Middle East as well as the human right records, all the 
records that all fit within the journalistic blanket.
    Mr. Pattiz. Oh, come on. Ask it.
    Mr. Shays. Come on, John.
    Mr. Tierney. We have some stations in this country that 
aren't all that objective. I hope you're not subcontracting it 
out. That's all I'm saying.
    Mr. Pattiz. I don't know about those, but I supply them 
with a lot of programming.
    Mr. Shays. Would this be fair to say that--staff is saying 
Voice of America strove to be balanced; Radio Free was 
considered more a propaganda broadcaster?
    Mr. Tomlinson. No. I served on the board of Radio Free 
Europe for 8 years.
    Mr. Shays. OK. So he said it, not me.
    Mr. Tomlinson. But the difference is----
    Mr. Shays. What a coward. I take full credit for that 
comment. I am really embarrassed, blaming the staffer.
    Mr. Pattiz. Just give him a good recommendation for his 
next job.
    Mr. Shays. I'm sorry, sir.
    Mr. Tomlinson. I was just about to say, Radio Free Europe, 
much like Radio Free Asia today, covers the local news with 
much more scholarly research, with much more focus on 
totalitarian societies, what's actually going on in 
totalitarian societies. And because of that, Radio Free Europe 
was frequently viewed as more aggressive and also much more of 
a threat to totalitarians because it was Radio Free Europe that 
was staffed to research what was actually going on, whereas 
Voice of America gave news, but was not always able to go 
inside societies.
    Mr. Shays. OK. Let me just ask this last question here. To 
what extent do you perceive duplication of effort and 
expenditure with both the Iraqi media network and the Middle 
East television network operation in Iraq?
    Mr. Pattiz. We have two different missions. Our mission is 
the same as it's always been in international broadcasting: to 
promote and sustain freedom and democracy through the free flow 
of accurate, reliable, and credible news and information about 
America and the world to audiences overseas. That is a long-
term, continuing, sustaining mission. Their mission, as I 
understand it, and I'm--but as I understand it, and I think I'm 
right about this, is to create an indigenous Iraqi media, kind 
of like their own public broadcasting, which will eventually be 
turned over to the Iraqis, and I think that may be soon to run 
themselves.
    Mr. Tomlinson. I would like to pay tribute to Chairman 
Frank Wolf, who returned from Iraq saying people in Iraq need 
what the BBG is doing; I'm going to put money in this 
appropriations bill so that there will be an Iraq stream to 
Middle East broadcasting. In fact, in 2 months the BBG will 
have an Iraqi stream flowing there.
    Mr. Shays. Frank Wolf has been a real hero on this and so 
many other issues that he doesn't get credit for, so I'm happy 
you are putting that in the record.
    Mr. Pachios, do you want to make any comments?
    Mr. Pachios. I have no further comment, Mr. Chairman.
    Mr. Shays. Let me do this. Is there any question that we 
should have asked you or any question that should have come 
out? Any question we asked the previous panel that you would 
have liked to have answered before we go to the next?
    All three of you have been terrific witnesses. Thank you.
    Mr. Pachios. No; thank you.
    Mr. Tomlinson. We just appreciate you focusing on this 
issue because I think one of the problems is public diplomacy's 
always been off to the side in this town. And I think, by 
focusing on what we need to do in public diplomacy, you will 
stimulate us all to do good, because people should be ashamed 
that here we are going up at this time when we should have been 
before.
    Mr. Shays. OK.
    Mr. Pattiz. Mr. Chairman, my only comment would be that 
there are a lot of groups looking at public diplomacy today and 
who are unhappy with the job of public diplomacy as a whole. My 
point would be don't throw the baby out with the bath water. In 
the last 3 years, we put Radio Sawa on the air as well as Radio 
Farda, which is a similar type of formatted radio broadcasting 
to Iran in the Farsi language, which is having great success. 
We are about to launch the Middle East television network 
Alhurra where we will be--and this may very well be because we 
are the last television network that was built--the most 
technologically advanced television network in the world.
    So when people are talking about the way to deal with 
public diplomacy, I think the BBG--and it's not just because 
I'm on it, because, you know, we are all part-time board 
members, and we come from the private sector, so we don't fit 
in a lot of the boxes that a lot of people like to put us in, 
in government: You should report to this guy, and this guy 
reports to that guy, and then there is, you know, a nice 
comfortable little chart. The BBG has functioned extremely 
well. I think it continues to function extremely well, and I 
would hope that we can continue to function that way in the 
configuration that we have now existing.
    Mr. Tomlinson. And don't forget the success of Persian 
television. There were people who said that the Voice of 
America couldn't do television, and this Persian television 
service has been a terrific success. We have had to change the 
way we dealt with calling back from Prague to Voice of America 
headquarters to say we found the money for Persian television, 
we can go on the air, let's get on the air 7 days a week; and 
on the other end of the line, someone said, well, we were 
actually planning 5 days a week. And I said, well, what happens 
if the revolution occurs on the 6th day or the 7th day? And, by 
the way, let's launch it next Sunday. We've got to get on the 
air. Events are coming down in Iran that need to be covered. 
And, says, well, Sunday, Sunday is a day we don't like to do a 
lot of work around here. And I said, for God's sake, we have to 
go on Sunday. And we did, and it's been wonderful to see the 
enthusiastic response of people in the trenches at the Voice of 
America. They want to do the job, they just have to be faced 
with the challenge.
    Mr. Shays. Gentlemen, you have been wonderful witnesses. We 
appreciate your service to your country and to our society and 
to the world community. Thank you very much.
    Our last panel is Jess T. Ford, Director, International 
Affairs and Trade, General Accounting Office; Stephen Johnson, 
senior policy analyst, the Heritage Foundation; David E. Morey, 
president and CEO of DMG, Inc., and member of the Council on 
Foreign Relations Public Diplomacy Task Forcel; and Dr. Stephen 
P. Cohen, president, Institute for Middle East Peace and 
Development, and member of the Advisory Group on Public 
Diplomacy for the Arab and Muslim World.
    Gentlemen, I am going to have you stand. Are we missing 
anyone? OK. I'm going to wait then. Why don't you just sit a 
second, because I am going to swear you in all at once. We will 
wait for our panelist.
    Gentlemen, you can have a seat for a second because I'm 
going to wait. We will just be in a slight recess here until 
our panelist is here.
    You know what I will do? I will swear the three of you in, 
then we can just get started, and then I will swear him in 
before he speaks. If you would stand, raising your right hands.
    [Witnesses sworn.]
    Mr. Shays. Note for the record all three have responded 
affirmatively. We will swear in our fourth witness in a second.
    We will start with you, Mr. Ford. And thank you, Mr. Ford. 
Sometimes we have you go first in the first panel, and 
sometimes we have you come in the second, and sometimes you are 
in the third. You are very flexible. It's a good thing. Thank 
you. Mr. Ford, we are going to have you start. I'm feeling 
pretty good, so I hope you guys make me feel good by the end of 
your testimony. I have hope.
    Mr. Ford. I'm sure we will.
    Mr. Shays. OK.

STATEMENTS OF JESS T. FORD, DIRECTOR, INTERNATIONAL AFFAIRS AND 
   TRADE, GENERAL ACCOUNTING OFFICE; STEPHEN JOHNSON, SENIOR 
   POLICY ANALYST, THE HERITAGE FOUNDATION; DAVID E. MOREY, 
 PRESIDENT AND CEO, DMG, INC., AND MEMBER, COUNCIL ON FOREIGN 
 RELATIONS PUBLIC DIPLOMACY TASK FORCE; AND STEPHEN P. COHEN, 
PRESIDENT, INSTITUTE FOR MIDDLE EAST PEACE AND DEVELOPMENT, AND 
  MEMBER, ADVISORY GROUP ON PUBLIC DIPLOMACY FOR THE ARAB AND 
                          MUSLIM WORLD

    Mr. Ford. Mr. Chairman, members of this subcommittee, I am 
pleased to be here today to discuss issues surrounding U.S. 
public diplomacy particularly in the Middle East.
    The terrorist attacks of September 11th were a dramatic 
reminder of the importance of our need to cultivate a better 
public opinion of the United States abroad. Yet recent public 
research indicates that foreign publics, especially in 
countries with large Muslim populations, view the United States 
unfavorably.
    Last September we reported for the House International 
Relations Committee on the State Department's public diplomacy 
efforts. Earlier in July of last year we also issued a report 
for the same committee on the progress that the BBG, the agency 
responsible for nonmilitary U.S. international broadcasting, 
has made in developing a new strategic approach aimed at 
reversing declining audience trends in supporting U.S. 
strategic objectives such as the war on terrorism.
    The State Department and the BBG share an annual budget of 
more than $1 billion for public diplomacy activities. Although 
neither of our reports focused exclusively on the Middle East, 
each identified systematic problems which would apply for 
public diplomacy activities there.
    Mr. Chairman, you asked us to discuss our conclusions and 
recommendations from those reports and, where possible, to cite 
specific examples of public diplomacy actions and issues 
observed during our field work in the Middle East. Today I am 
going to talk a little bit about the changes in public 
diplomacy that have occurred since September 11th, the 
government strategies for public diplomacy programs, and how it 
measures their effectiveness and the challenges that remain in 
executing U.S. foreign policy efforts.
    Since September 11th, both the State Department and the 
Board of Broadcast Governors have expanded their public 
diplomacy efforts in Muslim majority countries considered to be 
of strategic importance in the war on terrorism. In the two 
fiscal years since the terrorist attacks, the State Department 
has increased its public diplomacy funding and staffing and 
expanded its programs in the two regions with significant 
Muslim populations, South Asia and Near East.
    Among other efforts, the State Department is emphasizing 
exchange programs targeted at young and diverse audiences, 
including high school students. The State is also expanding its 
American Corners program, which provides information about the 
United States to foreign audiences through partnerships between 
U.S. embassies and local institutions. In addition, the 
Broadcasting Board of Governors has initiated several new 
programs focusing on larger audience in priority markets 
including Radio Sawa, the TV network that they are going to 
start this weekend, and Radio Farda in Iran. Estimated startup 
and recurring costs for these three projects for fiscal year 
2003 total about $116 million.
    Although State and the BBG have increased their efforts to 
support the war on terrorism, we reported that the State 
Department had not developed a comprehensive strategy that 
integrates all of its diverse public diplomacy activities and 
directs them toward common objectives, and that neither State 
nor the BBG has focused on measuring progress toward long-term 
goals. The absence of an integrated strategy may hinder the 
State Department's ability to channel its multifaceted programs 
toward concrete measurable progress. In comparison, the 
Broadcasting Board of Governors issued a strategic--5-year 
strategic plan in July 2001 called Marrying the Mission to the 
Market, which emphasizes the need to reach large audiences by 
applying modern broadcast technologies and strategically 
allocating resources to focus on high-priority broadcast 
markets such as the Middle East.
    Since the State Department and the BBG and other entities 
in the U.S. Government conducting public diplomacy have 
different roles and missions, it is important to note that 
there is currently no interagency public diplomacy strategy 
setting forth the messages and means for governmentwide 
communication to overseas audiences. According to State 
Department officials, without such a strategy the risk of 
making communication mistakes that are damaging to U.S. public 
diplomacy efforts could be high. In addition to strategy 
deficiencies, we found that the State Department and the Board 
for Broadcast Governors was not systemically and 
comprehensively managing progress toward goals reaching broader 
audiences and increasing public understanding of the United 
States. Since our reports have been issued, both agencies have 
taken a number of steps to address recommendations we have made 
in these areas.
    In addition to weaknesses in planning and performance 
measurement, the State Department and the BBG face a number of 
internal problems. According to public affairs officers at the 
State Department, these challenges include insufficient 
resources to effectively conduct public diplomacy and a lack of 
public diplomacy officers with foreign language proficiency.
    More than 40 percent of the Public Affairs officers we 
surveyed said the amount of time available to devote 
exclusively to executing public diplomacy tasks was 
insufficient. More than 50 percent reported that a number of 
Foreign Service officers available to perform these tasks was 
inadequate. Another 20 percent posted overseas lacked the 
language capabilities necessary to carry out their tasks.
    The Board of Governors also faces a number of media market 
organizational resource challenges that may hamper its efforts 
to generate large audiences in priority markets. These 
challenges include better programming, targeting audiences, 
addressing transmission quality and managing disparate 
structure consisting of seven separate broadcast entities.
    Mr. Chairman, we made several recommendations to the State 
Department and the BBG to correct and to improve on all of 
these deficiencies. I would be happy to discuss these in 
further detail in the question and answer period. That 
concludes my statement.
    [The prepared statement of Mr. Ford follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.024
    
    [GRAPHIC] [TIFF OMITTED] 94158.025
    
    [GRAPHIC] [TIFF OMITTED] 94158.026
    
    [GRAPHIC] [TIFF OMITTED] 94158.027
    
    [GRAPHIC] [TIFF OMITTED] 94158.028
    
    [GRAPHIC] [TIFF OMITTED] 94158.029
    
    [GRAPHIC] [TIFF OMITTED] 94158.030
    
    [GRAPHIC] [TIFF OMITTED] 94158.031
    
    [GRAPHIC] [TIFF OMITTED] 94158.032
    
    [GRAPHIC] [TIFF OMITTED] 94158.033
    
    [GRAPHIC] [TIFF OMITTED] 94158.034
    
    [GRAPHIC] [TIFF OMITTED] 94158.035
    
    [GRAPHIC] [TIFF OMITTED] 94158.036
    
    [GRAPHIC] [TIFF OMITTED] 94158.037
    
    [GRAPHIC] [TIFF OMITTED] 94158.038
    
    Mr. Shays. Thank you.
    Mr. Johnson. Move that mic over there.
    Mr. Johnson. Thank you, Mr. Chairman and distinguished 
members of the subcommittee. Thank you for inviting me to share 
my views on America's public diplomacy efforts toward the 
Middle East. I commend you for undertaking this important 
review of the U.S. public diplomacy process and for your 
efforts to improve it. I also commend the efforts of the 
leaders in the Bush administration, career officers, retirees, 
Members of Congress and their staffs, particularly those of 
Senator Richard Lugar, Representative Henry Hyde and 
Representative Frank Wolf. I also acknowledge the thoughtful 
suggestions of leaders and researchers in my foreign policy 
community to which I belong and whose experience in many cases 
far exceeds my own.
    Public diplomacy began losing substantial resources and 
effectiveness in the early 1990's. In 1999, the tightly managed 
U.S. Information Agency was folded into a more bureaucratically 
oriented U.S. Department of State and foreign broadcasting 
operations were spun off under a newly independent Broadcasting 
Board of Governors. Today, efforts to reorganize U.S. public 
diplomacy in the State Department still have yet to gel. The 
U.S. military and Broadcasting Board of Governors have become 
the lead communications agencies in the Middle East and 
cooperation between all these agencies awaits marching orders 
from the White House.
    Although it made economic sense, the merger of USIA into 
the State Department created some disarray and negotiators 
unfamiliar with its proactive mission carved up the agency and 
placed various parts under the authority of State's 
geographical bureaus, functional bureaus and the Bureau of 
Intelligence and Research. A small staff remained and a new 
under secretariat to handle cultural affairs, news 
dissemination and policy. The under secretary had no reporting 
or budgetary authority over public diplomacy officers and 
State's geographical bureaus or embassies. As a result, public 
diplomacy offices have integrated into some bureaus and not 
others, where as the Bureau of Western Hemisphere Affairs has a 
proactive diplomacy program, the Bureaus of European Affairs 
and Near Eastern Affairs have resisted accepting public 
diplomacy into their routines. Today the Near East Bureau is 
considering replacing its public diplomacy office with a $129 
million civil society initiative more suitable for the National 
Endowment for Democracy. Lacking a guiding doctrine, consistent 
strategies and a set of priorities, the Department of State is 
not yet a major player in Middle East public diplomacy, at 
least not like the Broadcasting Board of Governors or the 
Pentagon.
    Six months after the attacks on New York and Washington, 
the Broadcasting Board of Governors aggressively launched Radio 
Sawa and its new Middle Eastern Radio Network. Radio Farda 
beamed to Iran in 2003, and in 2004 the Middle Eastern 
Television Network, as we have just learned, is starting up in 
Virginia. In Iraq, the Department of Defense is disseminating 
information from the Coalition Provisional Authority to the 
Iraqi people and at the same time trying to develop independent 
media using private U.S. contractors.
    While State is still worrying how to do its job, both of 
these agencies are proactively pursuing the mission before 
them, although not perfectly. The U.S. Broadcasting Board of 
Governors is still meeting its challenges despite a 
congressionally mandated makeshift structure of broadcasting 
entities, Federal agencies and grantees directed by part-time 
Governors. And sadly, core Voice of America language services 
to Eastern Europe and Latin America have suffered cuts to free 
up resources for the Middle East. Such reallocations ignore the 
Voice's unique role in explaining U.S. policies and the need to 
reach regions where democracy and free markets are barely 
getting started.
    As for the Pentagon in Iraq, military civic action teams 
have a legitimate combat role in distributing information from 
command authorities. But turning that into free media is not a 
military affair, rather it is a political and social enterprise 
that involves establishing a regulatory framework and 
encouraging local entrepreneurs to develop outlets for news and 
opinions. To my knowledge, that has not been done. More tax 
dollars will not help unless they are carefully earmarked, 
which I don't recommend, or unless public diplomacy is better 
organized.
    Toward that end, I would say that the Under Secretary for 
Public Diplomacy must have more authority over her personnel 
from Washington to the field. Our military should refocus its 
communication activities more appropriately on combat-related 
objectives. USAID should fund media development in civil 
society projects through the National Endowment for Democracy. 
A streamlined Broadcasting Board of Governors should provide a 
more balanced menu of policy versus entertainment programming 
to the Middle East and to the rest of the world. And finally 
the White House must ask Cabinet agencies who now operate in 
separate universes to cooperate with each other. Perhaps then 
U.S. public diplomacy will get back on track.
    Thank you.
    [The prepared statement of Mr. Johnson follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.039
    
    [GRAPHIC] [TIFF OMITTED] 94158.040
    
    [GRAPHIC] [TIFF OMITTED] 94158.041
    
    [GRAPHIC] [TIFF OMITTED] 94158.042
    
    [GRAPHIC] [TIFF OMITTED] 94158.043
    
    [GRAPHIC] [TIFF OMITTED] 94158.044
    
    [GRAPHIC] [TIFF OMITTED] 94158.045
    
    [GRAPHIC] [TIFF OMITTED] 94158.046
    
    [GRAPHIC] [TIFF OMITTED] 94158.047
    
    Mr. Shays. Thank you. We could have rotated that over. Did 
you have anything more that you wanted to say?
    Mr. Johnson. I would yield to the more in-depth testimony 
that is printed up.
    Mr. Shays. Thank you for your thoughtful statement.
    Mr. Morey.
    Mr. Morey. Thank you, Mr. Chairman. It is an honor to be 
here. I am a cochair of the Council on Foreign Relations Task 
Force on Public Diplomacy and founder of DMG, a company that 
was borne from our work advising a number of international 
Presidential campaigns around the world, Corazon Aquino's in 
the Philippines, Kim Dae Jung's in Korea, Vincente Fox's in 
Mexico. Over the last 15 years, we have transferred that 
knowledge and experience to the corporate battlefield working 
with Microsoft, Coke, Nike, and a number of superb marketing 
and branding companies, advising them on communications. And we 
have learned a lot because we operate inside the context of the 
information revolution, which has changed everything. We have 
learned all the rules have changed for these entities, 
including the rules by which the United States must play by to 
communicate effectively in terms of public diplomacy around the 
world.
    For example, the velocity at which communication moves 
today, the degree to which government-directed communications 
are not as credible as they used to be, and the degree to which 
negatives can become entrenched. We see this from the task 
force appointed by Secretary of State Powell that found a 
shocking, I am quoting, level of hostility toward the United 
States. We all know those numbers. So our task force therefore 
concludes public diplomacy is in a state of crisis, a crisis by 
which we can't do anything less than revolutionizing, 
reenergizing and reforming and rethinking the way we go about 
the task. There are two traps, one, that it doesn't matter; 
two, that we fixed it. We argue that you can't step into 
either; that both statements are completely untrue.
    Let me briefly summarize what we recommend in dealing with 
this crisis and within this context of the information 
revolution. Three things: Prioritizing public diplomacy; 
finding ways to revolutionize the way it operates; and looking 
at ways to privatize some of the functions. And let me detail 
each very briefly.
    In terms of prioritization, we recommend a new Presidential 
directive. We recommend that specifically to encapture--to 
capture what Edward R. Murrow said, public diplomacy has to be 
involved at the takeoff, not just the crash landing; to bring 
it, if you will, into the center of the policy process, 
particularly at the White House. And there has been a very good 
step last year in the creation of the Office of Global 
Communications, but it's just a step, to form a public 
diplomacy coordinating structure, to institute a number of 
State Department reforms, which are detailed in the testimony. 
For example, the creation of a Quadrennial Public Diplomacy 
Review, modeled after the Quadrennial Defense Review, which 
elevates the role of strategic planning and which helps to 
create and empower a culture of measurement. We think that's 
very important, all those things in terms of prioritizing, 
upgrading the efforts of public diplomacy.
    Second, we recommend looking at ways to revolutionize the 
way we think about public diplomacy, emphasizing two-way and 
not just one-way communication. For example, upgrading research 
efforts. The U.S. Government through the State Department 
spends approximately $7 million on foreign public opinion 
research. We have worked on political campaigns that have spent 
a lot more. U.S. corporations today spend over $6 billion on 
foreign public opinion research. We have to get in that game 
and upgrade and make more sophisticated those efforts; 
training, exchanges. Mr. Chairman, your experience with the 
Peace Corps by some calculations, since 1993, exchanges have 
been reduced in terms of moneys by an inflation-adjusted figure 
of 40 percent. We have to do more in terms of the television 
network and radio network that were testified about on the 
previous panel, specifically in terms of the Internet, which we 
can't ignore; admittedly it is only 2 percent penetration with 
respect to the region we are dealing with today, but think of 
the future and think how powerful--we call them in corporate 
strategic terms, early adopters and influential end users are 
in that mix, so that has to be rethought.
    And just a word about money and I will stop. Money isn't 
the answer. Of the hundreds of recommendations we offer, most 
of them can be done without spending more money. But in fact, 
for every dollar of military spending today, 7 cents is spent 
on diplomacy and a quarter of a penny on public diplomacy.
    A final point which we can come to in questions and 
answers: We finally recommend exploring ways to privatize, 
specifically to act as a magnet, to attract private sector 
talent, tools, resources, some of the best practices from the 
private sector that can take us to a new level in public 
diplomacy, not to compete with public diplomacy funding that is 
already out there today, not to cost taxpayers more money, but 
rather to take advantage of all the outside private sector 
talent and help that wants to come to bear on this problem.
    Thank you very much, Mr. Chairman.
    [The prepared statement of Mr. Morey follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.048
    
    [GRAPHIC] [TIFF OMITTED] 94158.049
    
    [GRAPHIC] [TIFF OMITTED] 94158.050
    
    [GRAPHIC] [TIFF OMITTED] 94158.051
    
    [GRAPHIC] [TIFF OMITTED] 94158.052
    
    [GRAPHIC] [TIFF OMITTED] 94158.053
    
    [GRAPHIC] [TIFF OMITTED] 94158.054
    
    [GRAPHIC] [TIFF OMITTED] 94158.055
    
    [GRAPHIC] [TIFF OMITTED] 94158.056
    
    Mr. Shays. Thank you very much. I enjoyed reading all of 
your resumes and this is going to be a fun panel to ask 
questions of. Dr. Cohen, good try. I already said there is one 
person I haven't sworn in and that was Senator Byrd and you, 
sir, are no Senator Byrd. I have no fear in swearing you in.
    [Dr. Cohen sworn.]
    Mr. Shays. I am very impressed. If it is all true in your 
biography, I am very impressed with the people you have brought 
together over your lifetime.
    Dr. Cohen. It is an honor to appear before your important 
subcommittee on this subject, which is the highest importance 
to American national security. The highly negative attitude of 
much of the Arab world and Muslim world toward the United 
States in the last few years represents an underlying source of 
threats to American national security, which is often referred 
to only by its overt manifestation in the war on terrorism. 
This widespread animosity must become a special target of our 
international relations foreign policy efforts, not only a 
focused target of our armed forces and intelligence agencies.
    I want to say to you that it is not hard to imagine a more 
positive attitude toward the United States than presently 
exists. It was not so long ago after World War I when the 
United States was the most preferred foreign country in many 
parts of the world that now exhibit this great animosity toward 
us. When President Woodrow Wilson articulated the 14 points on 
which the United States entered World War I and when he came to 
the Paris Peace Conference in 1919, the United States was 
greatly admired and loved as a new kind of force in world 
politics and a great source of hope for the still unfree 
peoples of the Ottoman Empire and other parts of this world. 
Our values and leadership were so much admired, there was as 
yet no experience nor propaganda that spelled out what is 
presently the widespread damaging theory that America has good 
universal values, but that we practice those values only for 
ourselves and violate them with determined hypocrisy when we 
act abroad, especially in relationship to Arabs and Muslims. 
These hostile theories must be addressed and public diplomacy 
must address them or else we are leaving the basic source of 
threat to our national security unchanged.
    Now the Working Group on Public Diplomacy on which I was 
proud to serve, which was headed by Ambassador Edward 
Djerejian, traveled to many countries in the Muslim and Arab 
world and we learned several things. There was one thing we 
learned above all, focus on the young people, the younger 
generation of Arabs and Muslims, millions of young men and 
women in this part of the world who presently have no realistic 
prospect of ever receiving a modern education, ever holding a 
good job or ever earning a decent income. This lack of hope is 
the critical issue we must address through our public 
diplomacy.
    Hating us is a decidedly second choice for most of these 
young people in the Arab and Muslim world. They would prefer 
and they hope for a good or at least decent life. Many of these 
people, these young people, see American and Americanstyle 
education as the key to their ever having a different future. 
Their present education is most likely to be rogue learning 
with inadequate preparation in the basic skills necessary for a 
competitive chance at employment in the world economy today. 
They learn nothing about critical thinking, but only rogue 
education. We found in many of the countries we visited young 
men and women, not even at the age when you call them men and 
women, but still boys and girls, dreaming of learning English, 
getting a chance to study, even temporarily, in American 
universities and playing a role through their lives and 
peacefully changing their own societies so that their own peers 
will have a future to look forward to.
    The amazing thing is that we in America hold a key to this 
door of hope and opportunity. We need to learn to use that key 
more effectively, more widely and in a more targeted manner for 
these young men and women from the Arab and Muslim world, and 
that key is the aberration of our educational system, our 
universities and our form of education to produce critical 
thinking and an open mind. Let us learn to use that key. It is 
not important only that we communicate in a public dramatic way 
through the media of television and radio. That is very 
important as well. But it is also very important and we must do 
as dramatic a change as we have made in creating Middle East 
television. We must create a major effort at reaching those 
young men and women.
    The second thing we learned everywhere and in no uncertain 
terms, and which is too often pretended not to be the case here 
in Washington, was that we have to focus on solving the 
Israeli-Palestinian problem. This issue has penetrated deeply 
into the consciousness of young people and old every where in 
these countries as a basic point of departure for hostility 
toward the United States, never mind Israel, and is an issue of 
intellectual and emotional centrality. We cannot afford to 
pretend otherwise. Even those who see that the conflict is a 
diversion for more pressing domestic problems in these 
societies must recognize how much this issue colors the 
perception of the United States, how much it prevents them from 
seeing the United States as anything but an impediment to the 
improvement of their own lives in the Arab and Muslim world. We 
need not be afraid to discuss this issue openly and we need to 
be forthright in expressing our concerns in identification with 
Israel together with our commitment to a dignified two-state 
solution. But most of all we need to be able to show that we 
are constantly day in and day out working toward a peaceful 
solution and we will make this a core purpose of our foreign 
policy.
    The third thing that I think we learned----
    Mr. Shays. You have about 2\1/2\ minutes left. How many 
points do you have?
    Dr. Cohen. I am planning to finish in 2 minutes.
    Mr. Shays. This is magnificent. I want to make sure we 
don't lose any of your points.
    Dr. Cohen. I won't be able to do everything I have in my 
written testimony, but I will get through what I can.
    The third thing that we learned was that, as I said 
earlier, there has to be a mix of public media and mass 
communication on the one hand and the most intimate and 
intensive exchange programs on the other. The possibility of 
intensive exchange programs penetrates into the most important 
sectors of these societies. It is true of the most--of the 
professionals who are most hostile to us, whether the legal 
profession, which has organized boycotts against the idea of 
normalization in Jordan or Egypt, whether it is the media, 
people in journalism, editors and so on, or as I said, 
especially young people who are about to enter college or who 
are seniors in high school and early stages in college 
education.
    I would also emphasize that we should do this with people 
who are training to be clergy in the Arab and Muslim world. We 
too much run away from the religious dimension of this problem. 
And I do believe we would do something very important if we had 
a focused program in which we brought young students who are 
learning to be clergy in the Muslim world in their early years 
to meet with counterparts in the United States and to talk 
about how to advocate religious conviction in your society 
without ethnocentrism and without adding the element of 
contempt for the other monotheistic religions. I believe we 
could play a very important role in this, and what I would like 
to report to you is that people in these institutions are now 
willing to contemplate such exchange and contact with our 
people.
    Too much of the time and in too many contexts, we, the 
United States and Americans, are simply outside the 
conversation that is taking place within these societies, even 
the conversation about us. We need to learn to hear those 
conversations, to speak clearly, forthrightly and emphatically 
within the conversation, and most of all we need to learn to 
hear and to get to be heard in those conversations. Showing up 
is the first principle.
    My last point in this section is to emphasize the 
importance of bringing Arab Americans into the conversation and 
into our public diplomacy as well as bringing American Jews 
into greater and more frequent contact with the Arab and Muslim 
world. The strong, hostile stereotype of Jewish control of 
America so widely held in the Arab and Muslim world is 
something that we can only counter by real contact with Jews in 
the United States in all their variety and diversity and for 
them to learn about the real role of Jews in America as a 
minority, not as a controlling element.
    [The prepared statement of Dr. Cohen follows:]
    [GRAPHIC] [TIFF OMITTED] 94158.057
    
    [GRAPHIC] [TIFF OMITTED] 94158.058
    
    [GRAPHIC] [TIFF OMITTED] 94158.059
    
    [GRAPHIC] [TIFF OMITTED] 94158.060
    
    [GRAPHIC] [TIFF OMITTED] 94158.061
    
    [GRAPHIC] [TIFF OMITTED] 94158.062
    
    Mr. Shays. Thank you very much, Dr. Cohen, we will stop 
right there. And let me first ask you, Mr. Morey, I am always 
fascinated when Americans tell people in other countries how to 
win elections. And there has to be some basic principles that 
exist that allow you to be able to go into a country where the 
culture is different--and I mean you were in some places where 
the culture was different. How do you have confidence that you 
can be--make a thoughtful contribution? Obviously, you have but 
how do you have the confidence?
    Mr. Morey. That's a good question and it relates to public 
diplomacy. We found the strategic denominators of campaigns in 
countries are more alike than they are unalike. We have a 
saying that every campaign is the same. Every campaign is 
different. But you can take the common denominators of a 
political campaign, a marketing campaign, in fact a public 
diplomacy campaign that has a penchant for playing offense, if 
you will, going on the attack, to control the dialog, to use 
strategy as the guiding principle. I think if there was one 
point I would make at the end of all of these excellent 
testimonies it is to elevate the role of strategic planning in 
the process of public diplomacy. We all know to the degree 
people have had campaign experience they have won or lost on 
strategy. And public diplomacy is so challenged today in this 
complicated world with enemies propagandizing against the 
United States, if we don't have a smart strategy we are in big 
trouble. And strategy doesn't cost money. Great strategy makes 
better use of existing resources.
    So that's probably the central lesson we have learned in 
advising political campaigns around the world, taking an 
outside strategic perspective that works on the ground.
    Mr. Shays. It's just the culture--isn't there sometimes you 
go there and say I don't know what I'm talking about in the 
sense that a firm handshake in one society is appreciated, a 
firm handshake in another society is considered aggressive and 
distasteful?
    Mr. Morey. You have to be extremely careful about making 
that kind of mistake. You have to have many interpreters on the 
ground. You have to get smart very quickly about a country's 
culture and unique aspects of that. But what you bring to the 
mix is the strategic lessons you have learned across many 
campaigns and they tend to be very similar across many cultures 
that have any kind of democratized aspect to them. Things that 
work in campaigns in one country tend to work in another 
country, as long as they are adjusted and as long as they are 
sort of refined in terms of the local realities and cultural 
aspects of that country. Again, we have learned essentially 
that strategy has many common denominators. Successful strategy 
has many common denominators across those experiences.
    Mr. Shays. Mr. Johnson, when you were speaking, I was 
thinking where he is going to come from coming from Heritage. 
And I was thinking, my gosh, I hope he sees the value in public 
diplomacy and clearly you do. The message I'm getting from you, 
I think, and I wanted to be corrected if I'm wrong, is that 
there's so much we should be doing that we are not doing, that 
we--I mean, frankly, was it my own Republican Congress that 
shortchanged public diplomacy? You say 1990's. Was it like 
1995, thereafter?
    Mr. Johnson. I think the blame for----
    Mr. Shays. What I am wondering is, Republicans sometimes 
don't like the National Endowment for the Arts and you know the 
government doesn't have a role to play there, and Heritage 
would probably be down on that side of the spectrum. And yet I 
don't hear you saying that when it comes to public diplomacy 
the government does have a role. I think I'm hearing you saying 
that.
    Mr. Johnson. Not necessarily. It depends on how these 
bureaucracies are used and if they are used in a way that fits 
in our democracy and conservative principles. In the case of 
the National Endowment for Democracy, it's done yeoman's 
service. In years past and over 2 decades, it has, through its 
daughter organizations, the National Democratic Institute and 
the International Republican Institute, done fine service in 
helping to birth democracies in Latin America and Africa and in 
Asia and other parts of the world. So they do this job very 
well. The question is whether you coordinate with them, whether 
you work with them, whether you look at the various missions 
that they have and try to leverage these efforts in the best 
way that you can. I think what David was saying a little bit 
earlier about the need for strategy is very important, because 
when you look at the way we have handled it so far since 
September 11 it doesn't look like there's a guiding light there 
or strategy, and you have a lot of players in this. Not only do 
you have the BBG, State Department, but you also have USAID, 
the National Endowment for Democracy, which hasn't been 
utilized very well in Iraq. And you also have the Department of 
Defense in its role in creating what is known as an 
``information warfare'' or ``information operations'' 
capability that may transcend or overstep some of these 
boundaries that we now recognize between the BBG and State and 
other government agencies and even the private sector. And 
whether this has all been fleshed out and directed toward 
solving some of the problems we have in communicating with 
other cultures, I'm not sure has been done in a coherent way. 
It worries me a little bit because there is also the potential 
of waste in there, but there's also the potential of misusing 
some of these very valuable tools that we have.
    Mr. Shays. By the way, if I ask one individual a question 
and someone else wants to jump in, I am happy to have anybody 
else jump in.
    Dr. Cohen, one thing is pretty--there are a number of 
points--and I did want to make sure you did get through your 
four points, because I thought they were very important for us 
to think about, but focusing in on the young, I am struck by 
the fact that in most Arab communities there are a heck of a 
lot of young. And I'm told that the young don't think ill of us 
like we think they may. But I'm also told that the young don't 
see in some cases any hope of a better life. I mean I am 
admittedly talking somewhat in stereotypes. Particularly in 
Saudi Arabia, the wealthy who come to the United States, they 
tell their society how to live one way. They come to the United 
States and do it differently. But for those who are in Saudi 
Arabia that is the way they have to live and don't have the 
flexibility of going somewhere else. Is it your opinion that 
the young in general--let me back up and say, I went to--I 
voted to go--to allow force to be used in Iraq. I had a 
committee meeting and my constituents said you haven't 
interacted much with the Palestinian community. And I thought 
about it. I have been to Israel so many times, but only met 
with the Palestinian leaders a few times and much more with the 
Israelis. So I spent 5 days. And I went to Jericho and Hebron 
and Ramallah and Gaza each different day. And I met with school 
kids the whole time and I asked them--it was really thrilling. 
I asked them their happiest moment and their saddest moment. I 
kicked the teachers out, the administrators, so it was just the 
students and one or two people to translate. The thing that I 
was struck by--I will just mention the thing that touched me 
was that at one point there was all this buzz and then they 
said, Congressman, they are very impressed that you are here 
today because it happened to be Easter Sunday and that you had 
honored them on a day that would be most special to you. And I 
thought, you know, how easy it is to have a positive impact on 
people by just some gesture, which wasn't planned. It just 
happened to be the day I was there. And I think someone like--
President Kennedy had his picture taken in African huts all 
around Africa because he did something that was so simple and 
so remarkable. When the head of the African States came to 
visit, instead of having a ceremony in the East Room or the 
West Room, he brought them up to his own personal quarters. In 
their society--he brought them up to the third floor. That 
electrified Africa. That one little gesture had so much impact 
over so many people. I am getting into a little bit of a 
digression.
    Dr. Cohen. I don't think it is a digression, Mr. 
Congressman, because I think you are putting your finger on a 
very important part of what creates the image of America, which 
is are we really showing presence in the lives of these young 
people. And are we giving them an indication that we respect 
them, that we are not only trying to control them. When our 
public diplomacy commission went into classrooms, talked to 
teachers, talked in young sports clubs, it made a huge 
difference to their feeling that we were taking them seriously, 
that we were coming to hear what they had to say, that they 
mattered to us. And I think we shouldn't underestimate how much 
that basic human sense that they matter to us is going to make 
a difference in bringing about the readiness for change.
    I am not trying to underestimate the importance of policy, 
but I do believe taking people seriously, treating them with 
respect, showing some dignity is a critical aspect of what's 
going to have to change.
    Mr. Shays. Is there any question that any of you wanted to 
answer--any of the four of you want to answer of what was asked 
of the first panel or the second panel?
    Dr. Cohen. There is a question that you asked on the second 
panel, you and one of the other Congressmen that was here then, 
that I would like to make a comment on. You asked about with 
Radio Sawa and the new Middle East television network about 
their evaluation of their audience and how their audience 
responds to them. And I just want to suggest to you, I think it 
is a wonderful thing that the U.S. Congress has decided to make 
a major investment in trying to communicate in the Arab world 
through these radio and TV networks. But I think it's only 
appropriate that the evaluation of their impact be independent. 
And I think that it would be a terrible thing if after we 
invested all of these tens of millions of dollars, we did not 
have a serious independent evaluation of what they are 
achieving. And I think that many of the issues that separated 
my group on public diplomacy from the present effort would be 
dealt with if there was a serious independent, evaluative 
mechanism.
    Mr. Shays. Any other questions that were asked before that 
any of you would like to respond to?
    Mr. Morey. I would like to respond to one that wasn't quite 
asked, very briefly.
    Mr. Shays. Is there any question you want to ask yourself?
    Mr. Morey. Exactly. I just want to make a point. The 
question is how do you involve the private sector that wants to 
be involved constructively? And it's the argument of this 
Council Task Force that this job is so big that government 
alone can't do it. And since September 11, there are so many 
private sector people--there is money, talent and resources 
that want to help, but there is no place for them to help. We 
ought to study hard how to draw in those best practices. 
Innovation is hard, as you know, Mr. Chairman, to generate 
inside government. It tends to happen in the private sector out 
in the periphery. To pull it in, I mean, research, 
segmentation, campaign planning, grass roots communication, 
training, recruiting, all of those things. Creating some kind 
of entity, studying the construction of it, the commission of 
it over the next couple of months. We think it is very 
important because we think, again, this is not to take more 
taxpayer's money, but to make more efficient use of what we 
got.
    Mr. Johnson. Mr. Chairman, I would make one comment, I 
commend Ambassador Tutwiler for her testimony and her frankness 
in talking with your committee. I would take issue with the 
point that in order to change things in State that you need 
``buy-in'' from the field. It is not necessarily the field you 
have to get buy-in from, but it is the senior culture in the 
organization. And oftentimes the senior culture is the most 
resistant to these kinds of changes. One of the problems that 
State has had for many, many years comes from its diplomatic 
mission. It does not welcome public communication. It has never 
welcomed public communication with the American public. It has 
had a weak Public Affairs Bureau for many years and public 
diplomacy----
    Mr. Shays. When you say public communication, you mean 
what?
    Mr. Johnson. Talking with the public, communicating its 
mission.
    Mr. Shays. To the United States public?
    Mr. Johnson. To the U.S. public. Those two goals have been 
subsumed in the Under Secretary of Public Diplomacy and Public 
Affairs, those two missions. USIA and the Bureau of Public 
Affairs and State now are together. But the Department of State 
and its culture have to learn to be more open, to learn to 
utilize the tools of communication to communicate its mission 
and also in public diplomacy to do a better job of 
communicating policies overseas, and it may end up being 
dragged kicking and screaming to do this. I know Ambassador 
Tutwiler put a good face on this, on what's going on over there 
in some of the reforms she has been able to make since she's 
arrived there. But the Department itself has got to come around 
to becoming more aggressive in communicating openly with the 
American public.
    Mr. Shays. This may be a little bit off the subject, but 
some of the most impressive people I have met have been people 
who work in the State Department, particularly the people that 
will go into Gaza City, the person who will accompany me from 
the State Department. And they're really sharp, energetic, 
opinionated people, but there is something that happens when 
you get higher up in rank or what is it?
    Mr. Johnson. My own opinion, when you move through the 
ranks you go along to get along. And what happens is that 
because of the diplomatic nature of the mission--in terms of 
communicating with people in a diplomatic way, which is usually 
in private and massaging things and obeying the needs of 
stakeholders--that what happens is that you apply that behavior 
to your management principles and then it becomes core culture. 
But you can't manage an organization in secret, at least an 
open bureaucracy or a government organization in this country 
today or even in the world today. It just is impossible.
    Mr. Shays. Mr. Ford, any observation?
    Mr. Ford. I just want to comment on the State Department, 
the view that the field needs to take the lead. We did a survey 
on our public diplomacy work and we actually had an 80 percent 
response rate. We sent it to 160 relatively senior Public 
Affairs officers overseas and we were struck by some of the 
results that showed that, for example, 60 percent of them said 
they didn't feel like they had a clear sense of direction 
coming out of Washington in terms of what their duties were. A 
large percent of them claimed they didn't have enough time to 
go out and conduct their basic job, which is to go and interact 
with the public they are supposed to serve in those countries. 
Many of them complained about a lot of bureaucratic procedures 
they had to go through. An example I recall is a case where 
they wanted to hire a TV crew to go out and take pictures of an 
AID project so they could communicate that to the local 
community. And to make a long story short, they had to cancel 
it because they couldn't get the bureaucratic rules about 
procuring services and everything else taken care of in a 
timely fashion to go out and do that.
    It's clear to me that Ambassador Tutwiler, who we did meet 
on that project, is going to have her hands full because the 
key people, the senior people, there is clearly some 
frustration on their part of being able to carry out what they 
perceive to be their basic job.
    Mr. Shays. Do you want to make a comment?
    Dr. Cohen. I find that my colleagues on this panel and on 
other panels are very reluctant to raise the issue of money. 
And I think it's very important for us to recognize that the 
ratio of money spent on the American military presence in the 
Middle East compared with our public diplomacy presence in the 
Middle East is ridiculous. And we must recognize that the 
national security problem that we face is first of all, a 
problem in the minds and hearts of the people of the region and 
that the 100 and more million young people who are now easily 
recruited to hate us could be changed before they become a 
problem if we devoted the adequate resources to this rather 
than to sending our young people into danger in order to kill 
those who have already turned against us. And I don't think 
that we should be afraid to say that because we are devoting 
now a huge amount of our national security resources to 
thinking about the Arab world and the Muslim world, and we need 
to go to the root of that, which is communicating to these 
people, helping to change their education and their public 
media and the way they think about themselves, about their 
future and, in that context, about us as well.
    Mr. Shays. I am going to have Tom Costa ask a question. But 
I want to make sure I ask this so I don't leave wondering if I 
am being naive here. Is it naive to think that our eventual 
effort on satellite TV, if presented in an honest and open way, 
will have a positive impact on Al-Jazeera and Al-Arabiya as 
well? Is it naive to think that? I will ask you, Mr. Morey, 
first.
    Mr. Morey. I don't think it is naive to think that. Let's 
be honest. And I think the previous panel acknowledges that we 
face significant obstacles and challenges--it is hard to take 
viewers from all the other media outlets. But in my judgment, 
we have to try, because it is going to make some difference 
over the course of the effort. I don't think it is naive, but I 
think it's a very long-term challenge.
    Mr. Shays. Dr. Cohen, when we do have an appraisal of how 
they are doing, we have to give them a little time?
    Dr. Cohen. Yes, but we got to do it independently.
    Mr. Shays. Tom.
    Mr. Costa. Thank you, Mr. Chairman. This is a basic 
question just to bring us back a bit. Why has the message of 
Osama bin Laden, a man ambassador Holbrooke termed a man in a 
cave, resonated so much more strongly in the Arab world than 
the message being projected by us? If you could briefly say, in 
your opinion what is it about Osama's message and his way of 
communicating versus what we are doing, and what can we learn 
from that?
    Mr. Shays. Whoever has an answer first, answer. Dr. Cohen.
    Mr. Johnson. I will be real quick. Because bin Laden is one 
of them. That is one thing. And the other is because people can 
see in that one person their lives being changed or the 
personification of some of their dreams, though they may be 
misinformed. They look at something like the United States, of 
which they're not a part, as a very different matter. You have 
the same problem with Fidel Castro. He is not a very nice 
person and he does a lot of bad things, but there are a lot of 
people around the world, even in this country, today that are 
fascinated by his personality and the things that he does. I 
think it is in some measure a challenge of psychology. But in 
second measure, it means that we have to use multi-modal means 
of communicating and not necessarily arm's-length 
communication, which is broadcasting, as good as it is, but 
also exchanges. Face-to-face contact, as Dr. Cohen suggests, is 
very important in having people get to know us in a personal 
way.
    Mr. Morey. I agree. One of the more shocking statistics we 
saw over a year ago, before the invasion of Iraq, found that 88 
percent of Jordanians polled, and 82 percent of Saudi Arabians 
polled, had a favorable view of Osama bin Laden, which was 
quite shocking. And Iagree with the points Mr. Johnson made. I 
think it is a challenge. There are a lot of reasons why it has 
happened: Feelings of humiliation and the fact that the United 
States wasn't in this game, as we learned from the last panel. 
The challenge, it seems to me, is to separate the extremists 
who are receptive to that message from this next generation of 
sort of undecided soft supporters about this issue--and we have 
to think very aggressively about that kind of segmentation, as 
if it is a political campaign.
    Dr. Cohen. I want to say two things. One is to remember 
that there was a time when it was an American President who was 
just about the most popular person in that whole part of the 
world. So it has a lot to do with message, and that's the 
second thing. We need to take more seriously an analysis of 
what was the message that was delivered by Osama bin Laden and 
by his main intellectual development person, Ayman Zawahiri. 
And that has a lot to do with the fact that they are much more 
conscious of the history of their decline than we are conscious 
of what has happened in the last 100 years. I would give the 
best example of that is for us in America learning about World 
War I is a very low priority. And the sense that World War I 
can be understood by America's entry into the war compared to 
the implications for these people of the loss of their hopes 
for independence as a result of what happened after World War I 
with the occupation of Iraq and Syria and Palestine by the 
great powers. And by the end of the dream of independence, we 
are simply not aware of that history which has changed their 
perspective about the West and us and how we went from being so 
popular to being so reviled by many people. We just don't have 
it in our consciousness. And I think that's an important part 
of it, is that when we think about preparing ourselves for 
public diplomacy we have to be thinking about how we not only 
talk to them, but also how we prepare Americans to be aware of 
the fact that they are having a big impact by what they say 
here on what is heard there. Statements made in the United 
States can be replayed again and again in the Arab world long 
after they have no importance here and are completely forgotten 
here, but can be quoted to you as indications of what we 
supposedly believe when they are actually the belief of a small 
minority of people. And that can have an enormous effect. A 
good example of that is people in America who have spoken 
disparagingly of Islam and the prophet Muhammed. These remarks 
made in America don't last a day in the American press, but 
they are quoted for months and even years and they are 
attributed not only to the person who spoke them, but as if 
they are the views of the majority of Americans and certainly 
the majority of American Christians and American Jews. And I 
think we must be aware of the fact that we are communicating 
even when we are inadvertently communicating our attitude of 
respect or disrespect to those millions of people who now 
matter to us in a way that they didn't before.
    Mr. Ford. I think that the comment that was made I believe 
in one of the earlier panels is part of this process and that 
is from our perspective what our target audience has been over 
the years. I think that many of our public diplomacy programs 
were geared for elite audiences. And that frankly, I don't 
think we paid a lot of attention to mass audiences and what the 
potential consequences of what we say here in this country and 
what we communicated abroad, how that could be impacted on 
people's attitudes. I think we heard this morning we are now 
going to pay attention to the mass audience because we are more 
concerned about how people view us overall.
    This gets back to the point that several members talked 
about. We need to have some sense of a coherent strategy on 
what we want to convey to foreign audiences and it may require 
us to rethink some of the things in the past we tried to do 
because the world has changed since 9/11. And it's not clear to 
me, at least in the work we have done, everybody clearly 
understands what we are trying to achieve. I think part of the 
reason people are reacting the way they are is that we may not 
have focused on some of those issues in the past.
    Mr. Costa. What should our strategy be, and how do we 
coordinate that strategy among all the various agencies 
involved? Mr. Ford, do you want to start again?
    Mr. Ford. I am going to repeat what I said in my testimony, 
is that we have several different Federal agencies that are 
involved in conducting public diplomacy activities, but there 
doesn't seem to be a broad focus on what each of them should be 
achieving. And we have examples where from our work that we 
have shown where they don't always know what each other is 
doing. It seems to me we need to have something that provides 
some focus to our overall efforts, because we are investing, at 
least on the State Department and BBG side, $1 billion. So I 
think that, you know--we don't know what that policy ought to 
be, but we certainly believe it ought to be better articulated.
    Mr. Johnson. It is a two-prong strategy. I would think that 
it has, first of all, the intent of communicating what our 
policies are in trying to engineer some consensus for those 
policies in the world community. The second thing is to let 
people in other countries know who we are and get to know us in 
a long-term effort to build friends and bridges of 
understanding with them, and also to listen to them to know 
what their concerns are so we can tailor some of our policies 
and our messages to them to build tighter bonds. I think key to 
doing that, though, is doing something that David's 
organization mentioned earlier on and certainly the Center for 
the Study of the Presidency, and that is develop some sense of 
coordination. That has to happen in the White House. President 
Bush created the Office of Global Communications ostensibly to 
craft and disseminate messages intended for overseas audiences. 
But still someone needs to coordinate public diplomacy 
activities between various agencies. That office could do it, 
but it's not doing it right now. Somebody needs to do that job.
    Mr. Morey. It's too good and complicated a question to 
answer briefly and a lot of it is in the testimony in terms of 
prioritizing, revolutionizing, even privatizing some of this. I 
would just flag one point in terms of what the strategy ought 
to be. The strategy, front and center, and back to political 
campaign experience, ought to be doable, something we can 
actually do in terms of its objective. It is undoable, 
certainly in the short term, for the U.S. public diplomacy 
efforts to get the rest of the--or this part of the world to 
love us. It is doable and it is a hard mission to drive a wedge 
between the extremists, the Osama bin Ladens, and the moderate, 
young next generation of Muslims around the world--to separate 
the hard opposition, if you will, from other parts of the 
segmentation, the attitudes they have about the United States. 
That ought to be a front and center priority within our 
strategy, particularly among the next generation.
    Dr. Cohen. I think there are two parts of the answer that I 
would like to mention. One is that we need to get the President 
of the United States to understand that in the present world 
that he is not only the commander in chief but he is the public 
spokesman of the United States to the world in chief and that 
when he speaks, he speaks to the whole world, not only to the 
American people. And I think that that's why it's necessary 
that the strategy be centered in the White House and be an 
important part of the way the President thinks about the way 
he's formulating his foreign policy, his security policy, his 
operations within the world.
    The second thing I would say is we need to focus on the 
people of the region, not only the regimes of the region. And 
in focusing on the people of the region, I think it will teach 
us to put a lot of our emphasis on the fact that there is a 
huge population. So we are dealing with a part of the world 
where over 50 percent of the people are under the age of 25. 
And in some cases, we are dealing with populations which are 50 
percent in their teens and younger, and we need to reach out 
and affect that group.
    Mr. Costa. Thank you, Dr. Cohen.
    Mr. Shays. I think we are going to conclude here. Just 
asking, is there any point that you want to put on the record 
before we adjourn? Any comments here? You have been a wonderful 
panel and I am just very grateful that you took the time to 
participate. Thank you so very much. With that, we will hold 
this hearing up.
    [Whereupon, at 5 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]
[GRAPHIC] [TIFF OMITTED] 94158.063

[GRAPHIC] [TIFF OMITTED] 94158.064

[GRAPHIC] [TIFF OMITTED] 94158.065

[GRAPHIC] [TIFF OMITTED] 94158.066

[GRAPHIC] [TIFF OMITTED] 94158.067

[GRAPHIC] [TIFF OMITTED] 94158.068

[GRAPHIC] [TIFF OMITTED] 94158.069

[GRAPHIC] [TIFF OMITTED] 94158.070

[GRAPHIC] [TIFF OMITTED] 94158.071

[GRAPHIC] [TIFF OMITTED] 94158.072

[GRAPHIC] [TIFF OMITTED] 94158.073

[GRAPHIC] [TIFF OMITTED] 94158.074

[GRAPHIC] [TIFF OMITTED] 94158.075

[GRAPHIC] [TIFF OMITTED] 94158.076

[GRAPHIC] [TIFF OMITTED] 94158.077

[GRAPHIC] [TIFF OMITTED] 94158.078

[GRAPHIC] [TIFF OMITTED] 94158.079

[GRAPHIC] [TIFF OMITTED] 94158.080

[GRAPHIC] [TIFF OMITTED] 94158.081

[GRAPHIC] [TIFF OMITTED] 94158.082

[GRAPHIC] [TIFF OMITTED] 94158.083

[GRAPHIC] [TIFF OMITTED] 94158.084

[GRAPHIC] [TIFF OMITTED] 94158.085

[GRAPHIC] [TIFF OMITTED] 94158.086

[GRAPHIC] [TIFF OMITTED] 94158.087

[GRAPHIC] [TIFF OMITTED] 94158.088

                                 <all>

</pre></body></html>
